<html>
<title> - DEVELOPMENTS IN UKRAINE</title>
<body><pre>[Senate Hearing 113-525]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-525

                        DEVELOPMENTS IN UKRAINE

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 5, 2014

                               __________

       Printed for the use of the Committee on Foreign Relations


      Available via the World Wide Web: http://www.gpo.gov/fdsys/




                  U.S. GOVERNMENT PRINTING OFFICE
92-458                    WASHINGTON : 2015
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
TOM UDALL, New Mexico                JOHN McCAIN, Arizona
CHRISTOPHER MURPHY, Connecticut      JOHN BARRASSO, Wyoming
TIM KAINE, Virginia                  RAND PAUL, Kentucky
EDWARD J. MARKEY, Massachusetts
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                              (ii)        




                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator from Tennessee....................     2
Green, Hon. Mark, president, International Republican Institute; 
  former U.S. Ambassador; and member, U.S. House of 
  Representatives, Washington, DC................................    17
    Prepared statement...........................................    19
Harman, Hon. Jane, director, president, and CEO, Woodrow Wilson 
  International Center for Scholars; former member, U.S. House of 
  Representatives, Washington, DC................................     3
Jeffrey, Hon. James F., Philip Solondz Distinguished Visiting 
  Fellow, The Washington Institute; former assistant to the 
  president and deputy national security advisor, Washington, DC.    13
    Prepared statement...........................................    15
Pifer, Hon. Steven, senior fellow, The Brookings Institution, 
  former ambassador to Ukraine, Washington, DC...................     4
    Prepared statement...........................................     6
Menendez, Hon. Robert, U.S. Senator from New Jersey..............     1
Wollack, Kenneth, president, National Democratic Institute, 
  Washington, DC.................................................    23
    Prepared statement...........................................    25


              Additional Material Submitted for the Record

Prepared statement of the NDI Election Observer Delegation to 
  Ukraine's 2014 presidential election submitted by Kenneth 
  Wollack........................................................    56

                                 (iii)

 
                        DEVELOPMENTS IN UKRAINE

                              ----------                              


                         THURSDAY, JUNE 5, 2014

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
SD-419, Dirksen Senate Office Building, Hon. Robert Menendez 
(chairman of the committee) presiding.
    Present: Senators Menendez, Cardin, Shaheen, Murphy, Kaine, 
Markey, Corker, Johnson, and Flake.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. Good morning. This hearing of the Senate 
Foreign Relations Committee will come to order.
    I want to welcome our panelists and thank them for taking 
time to share their perspective with the committee on 
developments in Ukraine, which appear only slightly less 
ominous than they did in act one of this crisis.
    Now we are in the beginning of act two, with the successful 
election of a President by the Ukrainian people in 
internationally certified elections, which is a major victory 
for Ukraine's struggle for freedom.
    Past elections in Ukraine have exhibited stark divisions 
between east and west. Significantly President-elect Petro 
Poroshenko won districts from one end of Ukraine to the other. 
It seems clear that the events of the past year and Russia's 
violation of their sovereignty unified Ukrainians as never 
before.
    While it is clear that President Poroshenko has a mandate, 
the challenges he confronts are daunting. He must rebuild the 
Ukrainian Government and an economy which has been weakened by 
the previous Presidents' corruption, while countering Putin in 
the east.
    We are committed as a nation to working with the new 
government and the people of Ukraine to consolidate Ukraine's 
democracy and economy, and help Ukraine withstand the malign 
tactics of its neighbor to the east. President Putin continues 
to direct events in Ukraine, seeking to undermine the new 
government and to foment discord in the east with the clear 
goal seeking a long-term ability to control and direct 
Ukraine's politics and policies.
    As Catherine the Great said, ``I have no way to defend my 
borders except to extend them,'' a point that seems to have a 
renewed poignancy today.
    To counter that 18th century mindset, I welcome President 
Obama's announcement this week of a European reassurance 
initiative that will increase our presence across Europe and 
build the capacity of our friends such as Georgia, Moldova, and 
Ukraine so that they can better work alongside the United 
States and NATO, as well as provide for their own defense.
    In my view, there are three things that are crucial for 
Ukraine's future. First, President Poroshenko must build a 
Ukrainian Government that is capable, transparent, accountable, 
and strong enough to meet both foreign and domestic challenges.
    Second, the Ukrainian Government will have to accommodate 
restive citizens in the east while gaining control from 
foreign-directed forces.
    And thirdly, the Ukrainian economy must be resurrected, 
including decreasing energy dependency on Russia.
    At the end of the day, the creation of a viable, successful 
Ukraine capable of preserving its sovereignty is an unfinished 
legacy of the cold war, and will take time. It is a necessary 
goal that requires the commitment and cooperation of the 
Congress, the executive branch and our allies, working 
together.
    With that, let me turn to Senator Corker for his remarks.

                 STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Mr. Chairman, thank you, and thanks to our 
expert witnesses here who will be helpful to us, I know 
especially the last one, who just came in well-dressed and 
looking sharp.
    I do want to congratulate the people of Ukraine for the 
election that just occurred. I know that we had a lot of 
observers there, including I think Jane Harman, who just walked 
in, and many of our colleagues. Poroshenko, who many of us had 
the opportunity to meet over the course of time, I think is the 
person today.
    There are tremendous issues to overcome in Ukraine, 
forgetting the external effect that Russia is having on the 
country. There are tremendous corruption issues, energy issues, 
democracy issues, human rights issues, all kind of issues for 
any leader to have difficulty undertaking, not to speak of the 
external issues I just mentioned. There is no question that 
Russia played a role in eastern Ukraine. There is no question 
that they continue to play a role in eastern Ukraine. 
Obviously, it looks like they are back and forth between trying 
to negotiate with this new government and create alliances 
there and, at the same time, continuing to destabilize the 
country in other ways.
    So I look forward to what our witnesses have to say 
relative to what our policy should be going ahead. I know there 
was an announcement today where Cameron and our President 
announced the need for new sanctions in Russia. I look forward 
to hearing what the witnesses have to say about that. I know 
numbers of us have joined together pushing for that kind of 
thing.
    But the fact is we have tremendous challenges there. I know 
just having come from eastern Europe, concern for security and 
stability in that region is paramount right now as they have 
seen Russia doing what it has done. So the fact is we not only 
have the issue of Ukraine to contend with--and again, I know 
you are going to enlighten us in that regard, but also the need 
to show tremendous strength and perseverance relative to 
eastern Europe in general. So a very, very important issue of 
great geopolitical significance.
    Thank you all for being here, and I look forward to our 
questions.
    The Chairman. Thank you, Senator Corker.
    Let me introduce our panelists--the Honorable Jane Harman, 
director, president, and CEO of the Woodrow Wilson 
International Center for Scholars, and a former colleague of 
mine in the House. We welcome you back to the committee. We 
also have with us former Ambassador to Ukraine, Steven Pifer, 
who is now with the Brookings Institution. Our third panelist 
is former Assistant to the President and Deputy National 
Security Advisor James Jeffrey, now the Philip Solondz 
Distinguished Visiting Fellow at the Washington Institute. Next 
is Mark Green, the president of the International Republican 
Institute [IRI] and former Ambassador to Tanzania, and Member 
of the House of Representatives. Finally, someone who is no 
stranger to the committee, Ken Wollack, the president of the 
National Democratic Institute [NDI].
    Let me welcome you all to the committee.
    I will advise you that all of your full statements will be 
included in the record, without objection. We would ask you to 
summarize them in about 5 minutes or so. And we will proceed in 
the order in which I introduced you. Jane, you are first.

 STATEMENT OF HON. JANE HARMAN, DIRECTOR, PRESIDENT, AND CEO, 
   WOODROW WILSON INTERNATIONAL CENTER FOR SCHOLARS; FORMER 
     MEMBER, U.S. HOUSE OF REPRESENTATIVES, WASHINGTON, DC

    Ms. Harman. Thank you, Mr. Chairman, and thank you, Ranking 
Member Corker. Both of you are dear friends of mine and former 
colleagues and also friends of the Wilson Center, and I 
appreciate being invited.
    Everyone on the lineup here is a close friend, and I was 
very proud to be a member of the NDI delegation in Ukraine just 
a week and a half ago. It is the eighth election I have 
observed. NDI and IRI do this brilliantly, and it matters to 
have them in countries and to have teams with them who can get 
around.
    And in that connection, on the day before the election in 
Ukraine, my small group, headed by former Secretary of State 
Madeleine Albright, met all the leading candidates, including 
Petro Poroshenko, who impressed me as a man capable of leading 
his country. And it was impressive to see his enormous victory. 
Would a lot of Members of the Senate not like a victory of 55 
to 56 percent in a crowded field, avoiding a runoff?
    At any rate, let me just make some brief comments.
    This is Ukraine's third chance to get it right. Ukraine got 
it wrong after the wall came down. Ukraine got it wrong after 
the Orange Revolution. A series of governments were corrupt and 
not competent. This is chance three, and I think it will either 
work or it will be three strikes and you are out. I do not 
think Ukraine will get a chance like this again.
    Second point. The West obviously needs to help Ukraine, and 
President Obama announced some aid. The IMF and the EU are 
poised to help. But Ukraine has to help Ukraine. This is the 
chance for Ukrainians to take responsibility for their future, 
and I do think that many Ukrainians with whom we spoke get 
that. I think there are five things that President Poroshenko--
he will be President this Saturday--needs to do.
    One is go to east Ukraine and tell the folks there--he says 
he is going to do this--that he favors some form of 
decentralization that is consistent with one Ukraine and that 
he wants them to serve in his government. The current Acting 
President Turchynov was in east Ukraine the other day, and I 
thought that was a good move.
    Second, include the Maidan crowd, the crowd that 
demonstrated in Maidan so bravely over 6 months, in the new 
government. Some of them want to serve. Some of the current 
government members were in the Maidan. This has to be a 
different movie from Egypt. The people who were brave and 
courageous and wanted to change their country have to be 
included in the government.
    Third, enforce the anticorruption laws. There are some on 
the books. If they need to be stronger, make them stronger. 
Certainly it is true that Poroshenko is himself an oligarch, as 
are most of the folks in senior leadership positions in 
Ukraine, but this is his chance to show that he is going to 
lead his country not just pad his bank account.
    Fourth, assemble an A-plus economic team from inside and 
outside the country so that the tough steps can be taken to 
qualify for IMF and EU loans.
    And fifth, welcome the Ukrainian diaspora back. There are 
very many smart and some wealthy Ukrainians out and about who 
could help their country.
    Then comes the tough issue--and you mentioned this, Senator 
Corker--what to do about the Russians and the unrest in the 
east part of Ukraine. I think it is time for a united voice, 
all the Europeans, President Obama, and others, to call on 
President Putin to stop most of this violence. I am assuming 
there are some crazies he cannot stop, but we all know that 
Chechens and others are crossing the Russian border in trucks 
with arms. And those folks have to come home. The border has to 
be policed. The flow of arms has to be stopped. And Putin 
should tell the separatists in east Ukraine to lay down their 
arms.
    But second, we do need more sanctions. And I would say that 
these sanctions against the banking industry and the economic 
industry and the energy--the economic sector and the banking 
sector have to be imposed. And I know that Europe is reluctant, 
but Chancellor Merkel seems to be open to this. And President 
Obama should press big-time to have those sanctions in place if 
President Putin does not respond in the shortest period of time 
to this demand to stop the violence in east Ukraine.
    Thank you.
    The Chairman. Ambassador Pifer.

 STATEMENT OF HON. STEVEN PIFER, SENIOR FELLOW, THE BROOKINGS 
   INSTITUTION, FORMER AMBASSADOR TO UKRAINE, WASHINGTON, DC

    Ambassador Pifer. Mr. Chairman, Senator Corker, 
distinguished members of the committee, thank you for the 
opportunity to talk to you today about the Ukraine-Russia 
crisis and the United States policy response.
    And, Mr. Chairman, I have submitted a written statement for 
the record, which I will now summarize.
    Ukrainians went to the polls in large numbers on May 25 in 
an election that met international democratic standards. Petro 
Poroshenko won a resounding victory.
    The President-elect now faces significant challenges. He 
must find a way to manage eastern Ukraine, where clashes 
continue between separatists and government forces. He must 
oversee implementation of the economic reforms in Ukraine's 
program with the International Monetary Fund. He must address 
the questions of decentralization of power.
    Mr. Poroshenko also faces the major challenge of dealing 
with Russia. Unfortunately, by all appearances, Vladimir Putin 
remains opposed to Kiev's desire to draw closer to the European 
Union. He continues the policy that Moscow has pursued since 
its illegal occupation of Crimea; Russia seeks to destabilize 
the Ukrainian Government.
    There is no evidence that Moscow has used its influence 
with the armed separatists in Ukraine's east to urge them to 
deescalate the crisis. To the contrary, Russia appears to 
support and encourage them. Numerous reports indicate that 
arms, supplies, and fighters flow from Russia into Ukraine.
    Russia has legitimate interests in Ukraine, to be sure. But 
those interests do not mean that it should resort to force, 
seize Ukrainian territory, or support separatism.
    The U.S. policy response appears to have three vectors. 
First, the administration has bolstered the political 
legitimacy of the Government in Kiev and targeted assistance to 
help Ukraine reform.
    One area where Washington should do more is military 
assistance. The Ukrainian military needs help in strengthening 
its defensive capabilities. Ukrainian units in the field could 
use basic equipment such as tents. The decision to provide body 
armor, night-vision goggles, and communications equipment is 
welcome, if overdue.
    The United States should also offer counterinsurgency 
advice and intelligence support. It is also appropriate to 
consider providing light antiarmor weapons and man-portable air 
defense systems, particularly since the Ukrainian military, at 
United States and NATO request, eliminated many of its stocks 
of MANPADS.
    The second vector of United States policy has aimed to 
reassure NATO allies in the Baltic and Central European 
regions, who are more nervous about Moscow's intentions 
following the seizure of Crimea. United States and NATO 
military forces have deployed with the objectives of reassuring 
allies of NATO's commitment to their defense and of 
underscoring that commitment to Moscow.
    On Tuesday, the President proposed a $1 billion program to 
increase the U.S. military presence in Central Europe. Congress 
should approve expedited funding for that.
    The third vector of U.S. policy has sought to penalize 
Russia with the goal of effecting a change in Moscow's course 
on Ukraine. Washington has ratcheted down bilateral relations. 
G7 leaders, the G8 less Mr. Putin, met in Brussels instead of 
Sochi.
    The U.S. Government has worked with the European Union to 
impose visa and financial sanctions on selected Russian 
individuals and entities. The sanctions to date, although 
modest, appear to have an impact. Projections of Russian GDP 
growth in 2014 have been reduced, and Bloomberg reports that no 
Russian company has been able to sell foreign currency bonds 
since March.
    Sanctions, however, thus far have failed in their primary 
political purpose. Russia has not significantly altered its 
course on Ukraine. More robust sanctions are justified and 
should be applied. These could include: expanding the list of 
Russians targeted for visa and financial sanctions; applying 
targeted sanctions on the financial sector of Russia, beginning 
with the sanctioning of at least one major Russian financial 
institution as opposed to smaller pocket banks; and blocking 
Western companies from new investments to develop oil and gas 
fields in Russia.
    In considering sanctions, Washington should be smart. Where 
possible, it makes sense to use a scalpel rather than a 
sledgehammer. The U.S. Government should avoid measures that 
are counterproductive.
    Washington should also encourage Kiev to pull together a 
package for a settlement of the country's internal divisions. 
These could provide a basis for stabilizing Ukraine. The big 
question, however, is whether the Kremlin would be prepared to 
support any settlement.
    Mr. Chairman, Senator Corker, members of the committee, the 
Ukrainian crisis will likely continue for some time. The 
challenges facing Kiev are steep. Stabilization will not prove 
easy.
    But we should remember that Ukraine has rich economic 
potential and a talented people. Many Ukrainians seem to 
recognize that they have a precious second chance to turn their 
country around, after the missed opportunity of the Orange 
Revolution.
    United States policy should aim to maximize the prospects 
that this time Ukraine will succeed. This will be important for 
the people of Ukraine and for a more stable and secure Europe. 
Also, the best rebuke to Moscow's policy would be to see 
Ukraine in several years' time looking more and more like 
Poland: a normal, democratic, rule of law, and increasingly 
prosperous European state.
    Thank you for your attention.
    [The prepared statement of Ambassador Pifer follows:]

             Prepared Statement of Ambassador Steven Pifer

                              introduction
    Mr. Chairman, Senator Corker, distinguished members of the 
committee, thank you for the opportunity to appear today to testify on 
the Ukraine-Russia crisis and how the United States should respond.
    As Ukraine struggles through the ongoing crisis, Ukrainians went to 
the polls in large numbers on May 25 in an election that observers 
agreed met international democratic standards. Petro Poroshenko will 
take office on June 7 with renewed democratic legitimacy, having won a 
clear mandate from the Ukrainian electorate.
    The President-elect faces significant challenges. He must find a 
way to manage eastern Ukraine, where clashes continue between armed 
separatists and government forces. He must oversee implementation of 
the economic reforms to which Ukraine agreed in its program with the 
International Monetary Fund. He must address the important questions of 
decentralization of power and political reform.
    Mr. Poroshenko also faces the major challenge of dealing with 
Russia. Although Vladimir Putin said that Russia would respect the will 
of the Ukrainian electorate, Russian actions suggest a different 
approach. There is no evidence that Moscow has used its considerable 
influence with the armed separatists in Donetsk and Luhansk oblasts 
(provinces) to urge them to de-escalate the crisis. Numerous reports 
indicate that arms, supplies and fighters cross from Russia into 
Ukraine, something that Russian border guards could interdict.
    What apparently triggered Russian efforts to destabilize the 
interim Ukrainian Government after former President Victor Yanukovych 
fled in February was the interim government's affirmation of its desire 
to draw closer to the European Union and sign the Ukraine-EU 
association agreement. Mr. Putin opposes that. Given that Mr. 
Poroshenko also supports the association agreement, Russia will likely 
continue its destabilization efforts.
    The U.S. Government's response has been organized along three 
vectors: (1) bolster the Ukrainian Government; (2) reassure NATO allies 
unnerved by Moscow's aggressive behavior; and (3) penalize Russia with 
the objective of promoting a change in Russian policy. The 
administration generally deserves high marks on the first two vectors. 
More should be done, however, to raise the consequences for Moscow 
should it not alter its policy course regarding Ukraine.
            why should the united states care about ukraine?
    At a time when the U.S. foreign policy in-box is overflowing, why 
should Americans care about Ukraine? Let me offer three reasons.
    First, Ukraine has been a good international partner of the United 
States for more than two decades. When the Soviet Union collapsed in 
1991, Ukraine had on its territory the world's third-largest nuclear 
arsenal--including some 1,900 strategic nuclear warheads arming 176 
intercontinental ballistic missiles (ICBMs) and 45 strategic bombers--
all designed to strike the United States. Ukraine agreed to give up 
that arsenal, transferring the nuclear warheads to Russia for 
elimination and destroying the ICBMs and bombers.
    In 1998, Ukraine was participating in the construction of the 
nuclear power plant at Bushehr in Iran. At U.S. behest, the Ukrainian 
Government aligned its nonproliferation policy with U.S. policy and 
withdrew from the project, forcing Russia to find another and more 
expensive provider of turbine generators for the Iranian reactor.
    In 2003, following the downfall of Saddam Hussein, Kiev responded 
positively to the U.S. request for contributions to the coalition force 
in Iraq. At one point, the Ukrainian Army had nearly 2,000 troops, the 
fourth-largest military contingent, in country.
    And in 2012, Ukraine transferred out the last of its highly 
enriched uranium as part of the U.S.-led international effort to 
consolidate stocks of nuclear weapons--usable highly enriched uranium 
and plutonium.
    This kind of partnership merits U.S. support when Ukraine faces a 
crisis.
    Second, as part of the agreement by which Ukraine gave up its 
nuclear weapons, the United States, Britain, and Russia committed in 
the 1994 Budapest Memorandum on Security Assurances to respect the 
sovereignty and territorial integrity of Ukraine and not to use, or 
threaten to use, force against Ukraine. Russia's illegal seizure and 
annexation of Crimea constitute a gross violation of its commitments 
under that document, as does Russia's ongoing support for separatists 
in eastern Ukraine. The United States and Britain should meet their 
commitments by supporting Ukraine and pressuring Russia to halt actions 
that violate the memorandum.
    Third, Russia's actions constitute a fundamental challenge to the 
post-war order in Europe. The illegal seizure of Crimea is the most 
blatant land-grab that Europe has seen since 1945. The United States 
and Europe need to respond adequately and ensure that Russia faces 
consequences for this kind of behavior. Otherwise, the danger is that 
Mr. Putin may pursue other actions that would further threaten European 
security and stability.
       the situation in ukraine: the may 25 presidential election
    Ukrainians went to the polls on May 25 to elect a new President. 
The success of that election has important implications. Since Mr. 
Yanukovych fled Kiev (and Ukraine) at the end of February, many 
Ukrainians, particularly in the east, had seen the acting government as 
illegitimate. The May 25 election will put in office a President with 
renewed democratic legitimacy.
    By all accounts, the election proceeded normally in most of the 
country. Sixty percent of the electorate voted, an impressive number 
given that armed separatists in Donetsk and Luhansk--where about 14 
percent of Ukraine's voters reside--prevented voting in most precincts 
in those oblasts.
    On May 26, the Organization for Security and Cooperation in Europe 
election-monitoring mission released its preliminary assessment of the 
vote. While noting some problems, it concluded that the election was 
``largely in line with international commitments . . . in the vast 
majority of the country.'' Virtually all election observers--including 
the European Network of Election Monitoring Organizations and Committee 
of Voters of Ukraine--concurred in the positive assessment of the 
election's conduct.
    According to Ukraine's Central Electoral Commission, Mr. Poroshenko 
won with 54.7 percent of the vote, a figure that tracked closely with 
the number reported in the two major exit polls released on the evening 
of May 25. The strength of that victory was remarkable and, by crossing 
the 50 percent threshold, Mr. Poroshenko avoided the need for a runoff 
ballot. Every previous Presidential election since Ukraine regained 
independence had to go to a second round.
    Two other things were notable in the election results. First, of 
the top five candidates, four--who together won a combined total of 77 
percent of the vote--supported Ukraine drawing closer to the European 
Union. Second, in contrast to all the talk in Russia of neofascists 
running things in Ukraine, the two candidates from far right parties 
won a combined total of less than 2 percent of the vote.
                          domestic challenges
    Mr. Poroshenko will be sworn in as Ukraine's fifth President on 
Saturday.
    Eastern Ukraine poses the first of several difficult challenges 
awaiting him. Dozens, if not hundreds, have died in clashes between 
Ukrainian military and security forces and armed separatists in Donetsk 
and Luhansk over the past month. Mr. Poroshenko has said his first trip 
as President will be to Donetsk.
    Many in eastern Ukraine are troubled by how government power in 
Kiev changed in February and regard the acting government as 
illegitimate. Polls show, however, that more than 70 percent wish to 
remain a part of Ukraine. Mr. Poroshenko's election should lift some of 
that cloud of illegitimacy. If he can successfully assure the 
population in the east that he will listen to and address their 
political and economic concerns, he can undercut support for the armed 
separatists, whose welcome may be wearing out. That could also give a 
boost to the roundtable process launched by the Organization for 
Security and Cooperation in Europe aimed at resolving Ukraine's 
internal divisions.
    Mr. Poroshenko's second challenge will be implementing the economic 
reforms to which Ukraine agreed in order to receive $17 billion in low-
interest loans from the International Monetary Fund over the next 2 
years. Ukraine has the potential to receive as much as $25-$35 billion 
from the International Monetary Fund, other international financial 
institutions and Western governments to help it meet its external debt 
obligations--provided that it implements its reform program.
    The reforms are necessary to put the country's economic house in 
order and end rampant corruption. But the reforms will hurt many 
households across the country. Mr. Poroshenko will need to find a way 
to sustain the public's support for pursuing those reforms, a 
potentially difficult political test.
    The third challenge is decentralizing Ukraine's Government, in 
which too much power rests in the capital. Transferring some political 
authority to the oblasts--such as making regional governors elected as 
opposed to appointed by the President--would promote more effective, 
efficient, and accountable governance. It would also address demands in 
the eastern part of the country for more local authority.
    Mr. Poroshenko has said that he would like to see early Rada 
(Parliament) elections this year. That would be a wise move, as it 
would revalidate the Rada's democratic legitimacy in the aftermath of 
February's turmoil and would put in place Rada deputies reflecting the 
country's current mood.
    With regard to foreign policy, Mr. Poroshenko supports bringing 
Ukraine closer to the European Union, which includes signing a Ukraine-
EU association agreement that contains a deep and comprehensive free 
trade arrangement. That will expand access to EU markets for Ukrainian 
exporters. Opinion polls show that a majority of Ukrainians supports a 
pro-European Union course.
    Mr. Poroshenko has also expressed a desire to develop a working 
relationship with Russia--a sensible position given the many links and 
interactions between Ukraine and Russia. The principal challenge, 
however, is that Mr. Putin and the Kremlin oppose Ukraine's pro-Europe 
course, which would remove the country from Russia's sphere of 
influence. There are no significant indications to suggest that 
Moscow's goal of holding Ukraine back from Europe has changed.
                     russia's approach and motives
    On May 23, Mr. Putin said he would respect the results of the 
Ukrainian Presidential election. If Moscow is prepared to deal directly 
with Kiev in a normal manner and cease its support for the separatists 
who have created chaos in Donetsk and Luhansk, that would be a positive 
and welcome step. But skepticism is in order: this would amount to a 
total reversal in Russia's course over the past 3 months--and it is not 
clear why the Kremlin now would decide to do that.
    Kiev, the United States and European Union will watch closely to 
see how Russia deals with Mr. Poroshenko in the coming weeks. After 2 
months of intimidating military maneuvers on Ukraine's eastern border, 
it appears that Russia now has finally returned most of the troops to 
their bases. That is a welcome step.
    Russia has legitimate interests in Ukraine. But those interests do 
not mean that it should resort to force, seize Ukrainian territory, and 
support separatism. There is much that the Russians could do if they 
truly wished to defuse the crisis. There are many indicators that the 
Russian Government has been supporting the armed separatists in eastern 
Ukraine, including by providing leadership, such as Colonel Chirkin 
(Strelkov). The Russian Government could end that support and order its 
personnel to cease fighting. Moscow has taken no visible steps to urge 
the separatists in eastern Ukraine to lay down arms and evacuate 
occupied buildings, as was agreed in Geneva in mid-April. It could do 
so now. The flow of arms, including sophisticated antiaircraft weapons, 
other supplies and fighters, including from Chechnya, continues from 
Russia into eastern Ukraine. That is something Russian border guards 
could interdict if ordered to do so.
    Mr. Putin's approach toward Ukraine thus far appears driven by 
several factors.
    Russia's main focus has not been Crimea, which it illegally 
occupied in March. The Kremlin appears to seek a weak and compliant 
Ukrainian neighbor, a state that will defer to Moscow and not develop a 
significant relationship with the European Union. For Mr. Putin, 
possessing Crimea while mainland Ukraine draws closer to Europe is no 
victory.
    Although he lamented the collapse of the Soviet Union as the 
greatest geopolitical catastrophe of the 20th century, Mr. Putin does 
not seek to rebuild it. Doing so would require that Russia subsidize 
the economies of others, an economic burden that Moscow does not wish 
to bear.
    What Mr. Putin does want is a sphere of influence, which he views 
as a key component of Moscow's great power status. Countries within 
that sphere are expected to eschew policies, such as drawing too close 
to NATO or the European Union, that the Kremlin regards as inconsistent 
with Russian interests. A Ukraine that has signed, and is implementing, 
an EU association agreement would be a country moving irretrievably out 
of Moscow's geopolitical orbit.
    Domestic political factors also motivate Mr. Putin's policy. The 
seizure of Crimea was popular with most Russians, particularly his 
conservative political base. His domestic approval rating now exceeds 
80 percent. Trying to pull Ukraine back toward Russia, given the 
historical and cultural links, is also popular with many Russians.
    Another factor apparently motivating Mr. Putin is to see the Maidan 
experiment--which began with the demonstrations that started in late 
November and continues as Ukraine shapes a new government--fail. As was 
evident in 2012 following the brief period of large demonstrations in 
Moscow, the Kremlin greatly fears civil protest and moved quickly to 
clamp down. It does not want to see protest succeed in neighboring 
Ukraine.
    Finally, while it is difficult to understand how the Kremlin 
functions, some suggest that Mr. Putin operates in a bubble in which he 
receives information from relatively narrow channels dominated by the 
security services. When the Russian President talks about what has 
happened in Ukraine over the past 6 months--or about what happened 10 
years ago during the Orange Revolution--he does not describe protests 
motivated by popular discontent with an increasingly authoritarian 
leadership or a stolen election. He sees an effort orchestrated and led 
by the CIA and its sister European services, aimed in large part at 
hemming in Russia. Such a flawed understanding of Ukraine is worrisome, 
as bad analysis offers a poor foundation on which to base policy.
    How will Russia proceed regarding Ukraine? The April 17 meeting of 
the U.S., Russian, Ukrainian and European Union Foreign Ministers 
offered a chance for a diplomatic solution. Little appears to have come 
of it. Moscow did nothing to get illegal armed groups in cities such as 
Donetsk or Slavyansk to disarm or evacuate the buildings that they 
occupied. Instead, it appears to have encouraged and supported those 
groups. Today, unfortunately, the Russians continue to do little to 
exercise the very considerable authority that they have with the armed 
separatists to defuse the crisis.
    It is not clear that Mr. Putin has a grand strategy on Ukraine. He 
may be making decisions on an ad hoc basis. He likely did not decide to 
move to seize Crimea, for example, until he saw how events played out 
in Kiev at the end of February. He then saw an opportunity, and he took 
it.
    We must bear in mind that Mr. Putin surprised the West. Once it 
became clear that the acting government in Kiev would pursue the EU 
association agreement, most analysts expected a negative reaction from 
Moscow. But we anticipated that Russia would resort to its considerable 
economic leverage: block Ukrainian exports to Russia, press for payment 
of outstanding loans, or raise the price of natural gas for Ukraine. 
Russia instead used its military to take Crimea.
    The West should also bear in mind Mr. Putin's claim to a right to 
protect Russian ``compatriots''--ethnic Russians and Russian-speakers 
who do not have Russian citizenship. This was the justification for 
Russian action in Crimea. What does it mean for other states 
neighboring Russia with significant ethnic Russian minority 
populations?
                        the u.s. policy response
    The U.S. policy response over the past 3 months appears to have 
three vectors: support Ukraine, reassure NATO allies, and penalize 
Russia with the goal of effecting a change in Moscow's policy.
    The first vector has aimed to bolster Ukraine. Since the acting 
government took office in late February, there has been a steady stream 
of senior U.S. officials to Kiev, including Deputy Secretary of State 
Bill Burns, Secretary of State John Kerry, and Vice President Joe 
Biden. The Vice President will return to Kiev for Mr. Poroshenko's 
inauguration. President Obama has hosted Acting Prime Minister Arseniy 
Yatseniuk and met Mr. Poroshenko yesterday during his visit to Warsaw. 
These demonstrate U.S. political support and bolster the Government in 
Kiev.
    The United States worked closely with the International Monetary 
Fund to develop the current program for Ukraine. Provided that Ukraine 
implements the program's reforms, it is front-loaded to give Ukraine 
early access to significant funds, much more so than in most 2-year IMF 
programs. U.S. assistance programs should now focus on helping Ukraine 
implement the agreed reforms.
    U.S. officials have launched particular programs to assist Ukraine. 
Of particular importance is the effort to help Ukraine diversify its 
energy sources and increase energy efficiency so that it can reduce its 
dependence on Russia. A second program seeks to help Ukraine track 
where funds stolen by officials in the previous government went, with 
the goal of freezing and securing the return of those moneys to 
Ukraine.
    One area where the United States should do more is military 
assistance. The Ukrainian military needs help in strengthening its 
defensive capabilities. Given that most Ukrainian army bases are in the 
western part of the country--a legacy of Soviet times when Soviet 
forces in Ukraine were deployed primarily against NATO--many units that 
deployed to Donetsk and Luhansk lack infrastructure. MREs and other 
nonlethal equipment such as sleeping bags, tents, and logistics are 
needed to help sustain soldiers in the field.
    The decision to provide body armor, night-vision goggles, and 
communications equipment is welcome, if overdue. The United States 
should also offer counterinsurgency advice and intelligence support. It 
is appropriate to consider providing light antiarmor weapons and man-
portable air defense systems, particularly since the Ukrainian 
military, at U.S. and NATO request, eliminated many of its man-portable 
air defense systems so that they would not be subject to possible theft 
and terrorist use. Finally, the U.S. military should continue its 
program of exercises with the Ukrainian military, which has been a 
standard element of the U.S.-Ukraine military-to-military cooperation 
program for more than 15 years.
    The second vector of U.S. policy has been to reassure NATO allies 
in the Baltic and Central European regions, who are more nervous about 
Moscow's intentions and possible actions following the seizure of 
Crimea. U.S. and NATO military forces have deployed to the regions with 
the objectives of reassuring those allies of the alliance's commitment 
to their defense and of underscoring that commitment to Moscow.
    The most significant deployment has been that of four U.S. airborne 
companies, one each to Estonia, Latvia, Lithuania, and Poland, for what 
the Pentagon has described as a ``persistent'' deployment. These units 
lack heavy weapons and pose no offensive threat to Russia, but they are 
a tangible indicator of U.S. commitment to the four allies. It would 
send an even stronger message were the U.S. companies joined by 
companies from other alliance members. For example, a German company 
might be paired with the U.S. company in Lithuania, a British company 
with the U.S. company in Estonia, and so on.
    Speaking on Tuesday in Warsaw, President Obama proposed a $1 
billion program to increase the U.S. military presence in Central 
Europe. This is an appropriate step, given new concerns about Russia 
and Russian policy since the Kremlin's seizure of Crimea. Congress 
should approve expedited funding for this.
    The third vector of U.S. policy has to been to penalize Russia with 
the goal of effecting a change in Moscow's course on Ukraine. 
Washington has ratcheted down bilateral relations, and G7 leaders--the 
G8 less Mr. Putin--met today in Brussels instead of in Sochi, as had 
originally been planned.
    The U.S. Government has worked with the European Union to impose 
visa and financial sanctions on selected individuals and entities over 
the past 2 months. While the Russian economy was already weakening in 
2013, the sanctions imposed to date, although modest, appear to be 
having an impact.
    The Russian Finance Minister has projected that Russian GDP growth 
in 2014 would be \1/2\ percent at most and perhaps zero. That is down 
from projections of 2.0-2.5 percent in 2013. The Russian Economy 
Minister said that the Russian economy could be in recession by June, a 
development that he attributed to geopolitical circumstances, i.e., the 
effects of Russian policy toward Ukraine and the resulting sanctions.
    The Russian Finance Minister also noted that capital flight in the 
first quarter of 2014 amounted to $50 billion. Other sources suggest it 
was higher, perhaps on the order of $60-70 billion. Standard & Poor's 
has reduced the investment grade of sovereign Russian debt to one level 
above junk bond status. According to Bloomberg, no Russian company has 
been able to sell foreign currency bonds since March, in contrast to 
2013, when Russian companies sold $42.5 billion worth of such bonds.
    The sanctions are having an economic impact, but they thus far have 
failed in their primary purpose. Russia has not significantly altered 
its course on Ukraine.
    The U.S. Government has been more restrained than it should have on 
sanctions. Part of the reason is the administration's desire to move in 
concert with the European Union, so as to minimize the opportunity for 
Russian wedge-driving or selectively targeting American companies for 
retaliation. Unfortunately, the European Union has been overly cautious 
on sanctions, in large part due to concern for its trade with Russia, 
which is more than 10 times U.S.-Russia trade, and the need to find 
consensus among 28 member states, which generally produces a lowest 
common denominator approach.
    The West needs to recognize that Moscow remains part of the problem 
in Ukraine and is not yet part of the solution. Absent a change in the 
Russian course, the United States and European Union should apply 
further and more robust sanctions, which are already more than 
justified by Russia's actions. Additional sanctions could include:

  <bullet> Expanding the list of individual Russians--inside and 
        outside of government--targeted for visa and financial 
        sanctions. Sanctions should apply to family members as well.
  <bullet> Applying targeted sanctions on the Russian financial sector, 
        beginning with the sanctioning of at least one major Russian 
        financial institution (as opposed to smaller pocket banks).
  <bullet> Blocking Western energy companies from new investments to 
        develop oil and gas fields in Russia, just as the United States 
        and European Union have moved to block their companies from 
        investing in the development of oil and gas resources on the 
        Black Sea shelf around Crimea.

    The goal of sanctions should be to change Mr. Putin's calculus. 
Russian analysts have long described an implicit social contract that 
he has with the Russian people: diminished individual political space 
in return for economic stability, growth and rising living standards. 
He delivered spectacularly on his part of the bargain from 2000-2008, 
when the Russian economy grew by seven-eight percent per year. Some 
Russian economists in 2013 questioned, however, whether the projected 
2.0-2.5 percent growth would suffice; the objective of sanctions should 
be to inflict economic pain on Russia and undermine Mr. Putin's ability 
to deliver on his side of the bargain. That may--may, not necessarily 
will--lead him to adopt a new policy course.
    There is an alternative view. It holds that Mr. Putin will use the 
sanctions as a scapegoat and attempt to put all the blame on the West 
for Russia's poor economic performance. How sanctions will affect the 
Russian public's view toward Mr. Putin and his calculations regarding 
policy regarding Ukraine remain to be seen. The egregious nature of 
Russian actions over the past several months nevertheless argues that 
the West should impose significant consequences.
    In considering and applying sanctions, the U.S. Government should 
be smart. Where possible, it makes sense to use a scalpel and carefully 
target sanctions rather than a sledgehammer. It also makes sense to 
avoid policies that would not help Ukraine and would damage other U.S. 
interests--such as halting implementation of the New START treaty or 
accelerating the deployment of SM-3 missile interceptors that may not 
be technically ready for deployment in Poland.
                   possible elements of a settlement
    Washington should encourage Kiev to pull together the strands of a 
package to stabilize its internal situation, including elements of 
interest to many in eastern Ukraine. Elements of a settlement could 
include the following:
    De-escalation of the fighting in eastern Ukraine. The Ukrainian 
military could cease security operations if the armed separatist groups 
stand down and negotiate an evacuation of the buildings that they have 
occupied over the past 2 months. Moscow has called on Kiev to halt its 
operations; it could greatly increase the chances of this if it 
persuaded the separatists to abide by the Geneva agreement to evacuate 
occupied buildings and disarm. For its part, the government in Kiev 
should disarm the far-right Praviy Sektor movement.
    Decentralization of political authority. Members of the acting 
government and Mr. Poroshenko have suggested the possibility that some 
political authority could be shifted from Kiev to regional and local 
leaders. Mr. Poroshenko should put forward concrete proposals for 
decentralization, which may require constitutional reform. One obvious 
step would be to make the oblast governors elected as opposed to 
appointed by the President. It would also be sensible to transfer some 
budget authority to regional governments.
    Early Rada elections. The May 25 Presidential election gives Mr. 
Poroshenko a strong democratic mandate. It would make sense to hold 
early Rada elections in order to renew the democratic legitimacy of the 
parliamentary body as well.
    Russian language status. The acting government has indicated its 
readiness to give the Russian language official status (which it 
already enjoys in certain regions as the result of a language law 
passed during the Yanukovych Presidency). Mr. Poroshenko could affirm 
his readiness to support official status for Russian.
    International relations. Kiev's foreign policy is of interest to 
many Ukrainians. Some, as well as Russia, are concerned about the 
prospect of deepening relations between Ukraine and NATO, despite the 
fact that the acting government and Mr. Poroshenko have indicated that 
they have no desire to draw closer to NATO. That is and should be 
Kiev's decision. But not pursuing a deeper relationship with NATO now 
seems an appropriate policy for Ukraine: deepening relations with NATO 
would antagonize Moscow, and there is no appetite in the alliance to 
accept Ukraine as a member or offer a membership action plan. Most 
importantly, a push toward NATO would be hugely divisive within 
Ukraine, where polls show at most only 20-30 percent of the population 
would support such a policy; it would be particularly controversial in 
eastern Ukraine. Without forever foreclosing the option, Kiev should be 
able to articulate a position that assures Russia that NATO is not in 
the cards in the near- or medium-term, a policy that the alliance could 
acknowledge.
    Mr. Poroshenko, the Rada and a majority of Ukrainians favor drawing 
closer to the European Union and signing the Ukraine-EU association 
agreement. Moscow has complained that the European Union refused last 
year to discuss with it the association agreement. Kiev might indicate 
that it would be prepared for a trilateral EU-Ukraine-Russia discussion 
on steps that the European Union and Ukraine could take to ameliorate 
negative effects of the association agreement on Ukraine-Russia trade--
but not on the question of Ukraine's right to decide for itself whether 
or not to sign the agreement.
    Crimea. It is very difficult to envisage a scenario by which 
Ukraine regains sovereignty over Crimea. That does not mean that 
Ukraine or the West should accept Russia's illegal occupation and 
annexation. However, in a broader dialogue to find a settlement, it 
might make sense for Kiev and Moscow to set Crimea aside for the time 
being and return to the issue later after a settlement of other issues 
has been reached.
    These elements, which build on many points that the acting 
Ukrainian Government and Mr. Poroshenko have already articulated, could 
provide a basis for stabilizing Ukraine. They address a number of 
issues that the Russians have raised over the past 3 months--though 
they do not go as far as Moscow would want. The big question is whether 
the Kremlin would be prepared to support any settlement that shaped up 
along the above lines. At the moment, it is not clear that the Russians 
would.
                               conclusion
    Mr. Chairman, Senator Corker, members of the committee, the Ukraine 
crisis will likely continue for some time to come. With the election of 
a new President, the government in Kiev is better prepared to meet the 
challenges confronting it than was the case 3 weeks ago. Still, the 
challenges are steep.
    Addressing those challenges would be substantially easier were 
Russia to cease its efforts to destabilize Ukraine and adopt a more 
helpful policy. But it does not appear that the Kremlin is ready to 
cease those destabilization efforts. If it does not, the United States 
and European Union should move to apply more robust sanctions on 
Russia, with the goal of persuading Moscow to change its policy.
    International financial institutions and Western governments have 
pulled together a substantial financial package for Ukraine. The United 
States and European Union should target their assistance programs to 
help the Ukrainian Government implement the economic reforms in its IMF 
program. That will help Kiev stay on program--necessary for continued 
access to international financing--and will help bring about the 
reforms needed to build a more transparent, competitive, and productive 
economy.
    Washington should also encourage the Ukrainian Government to 
develop a settlement package that would help heal the internal 
differences that have developed over the past 4 months. Once Kiev 
adopts that package, the United States and European Union should give 
it full political backing and urge the Russians to support it as well.
    Stabilizing Ukraine will take time. But it has rich economic 
potential and a talented people. Many Ukrainians seem to recognize that 
they have a precious second chance to turn their country around--after 
the missed opportunity of the Orange Revolution.
    U.S. and Western policy should aim to maximize the prospects that, 
this time, Ukraine will succeed. That will be important for the people 
of Ukraine and for a more stable and secure Europe. Also, the best 
rebuke to the Kremlin's policy would be to see Ukraine in several 
years' time looking more and more like Poland--a normal, democratic, 
rule of law, and increasingly prosperous European state.

    The Chairman. Thank you.
    Ambassador Jeffrey.

      STATEMENT OF HON. JAMES F. JEFFREY, PHILIP SOLONDZ 
DISTINGUISHED VISITING FELLOW, THE WASHINGTON INSTITUTE; FORMER 
    ASSISTANT TO THE PRESIDENT AND DEPUTY NATIONAL SECURITY 
                    ADVISOR, WASHINGTON, DC

    Ambassador Jeffrey. Thank you very much, Mr. Chairman, 
Senator Corker, members of the committee. Again, I very much 
appreciate being here today.
    The Russian aggression against Ukraine is the most serious 
challenge to the international order since 9/11. As such, this 
crisis requires action at three levels.
    The first of the immediate steps that have been taken and 
are being taken deal with the phenomenon itself. As the acting 
National Security Advisor with President Bush during the 2008 
invasion of Georgia, I believe that the administration, under 
somewhat similar circumstances, had done, all in all, a good 
job dealing with the Russian incursion into Crimea and now in 
eastern Ukraine. It has not challenged Russia militarily on the 
ground, and I think that is a wise decision given the stakes 
and given the difficulty of deploying U.S. troops. On the other 
hand, it has used economic sanctions and every diplomatic tool 
possible and, in particular, brought along an initially 
recalcitrant Europe. And this will be a problem going forward 
as well, but the administration is trying its best on that.
    Thanks to both these efforts by the international community 
and, more importantly, as my colleagues have noted, the will of 
the Ukrainian people represented in the elections and the 
willingness of people even in eastern Ukraine to support a 
unified and sovereign Ukraine, the Russians have had to change 
their tactics somewhat, less direct military aggression, more 
indirect forces. But, nonetheless, as my Foreign Service 
colleague, Steve Pifer, just said, the strategy that Putin is 
following remains the same: to destabilize Ukraine and ensure 
it can never be a sovereign country able to choose its own 
future, which I believe would be with the West, and defend 
itself against falling under Russian sway.
    Thus, at the second level, we need to look at additional 
steps. The administration has announced a number of good moves 
this week. The Senate in the draft Preventing Russian 
Aggression bill has come up with others. I have my own. I will 
just touch on a few.
    First of all, I would second Ambassador Pifer. We need to 
provide not just MREs, although they are needed, but weapons 
and advisory teams to help the Ukrainians deal with this 
insurgency in the east. We have much experience in stability 
operations. They need to know how to use military force while 
reaching out to the population.
    Secondly, we need to, as the President said, very rapidly 
deploy significant heavy--that is, armor-heavy--prepositioned 
stocks and rotational forces along the borders of NATO's east. 
Again, the President is moving forward on this. This should not 
wait for additional money. We have the equipment. We can deploy 
the troops. We should also ensure that this becomes a NATO 
mission and that NATO also provides troops along with ours, as 
we did several times during the cold war.
    We have mentioned economic support for Ukraine. That's 
very, very important. And there, President Poroshenko is going 
to have to do a lot of work himself because a lot of money has 
gone into Ukraine without much result.
    Finally, as mentioned in your draft bill, we need to do 
more to wean Europe from Russian gas and from Russian financial 
investments and other pressures that it is able to use thanks 
to its economy. There are ways to do this that would have 
immediate and, more importantly, long-term effects. The long-
term issue I want to dwell on for a little bit because that's 
the third order of magnitude we have here.
    Again, what we have seen in the last months is an 
extraordinary development in the history of Europe and 
certainly in the history of the post-cold war. I reject the 
notion that Russia was pushed into this by NATO's expansion 
east. I was involved at a certain level on those decisions back 
20 years ago, and while perhaps that could have been done 
differently, the point is as NATO moved east, it also stood 
down the vast majority of its conventional forces. Russia did 
not do the same. The United States, the EU, the international 
community tried for 20 years with tens of billions of dollars 
to integrate Russia into the international community in every 
way possible. The result is a Russia that is trying to expand 
again using 18th century models.
    At this point, we have to consider the stark likelihood of 
not just a Russia but possibly a China as well, ever more 
closely tied to Russia, motivated to challenge both the 
international order and America as guarantor of that system. We 
need to start thinking as a country, as an alliance, and as a 
global community about the implications of this. If we wish to 
avoid a geostrategic shift, as dramatic as 1989 only in the 
other direction, maintaining the integrity of this 
international order including, if needed, by force must be 
among our vital interests.
    Thank you very much, Senators.
    [The prepared statement of Ambassador Jeffrey follows:]

           Prepared Statement of Ambassador James F. Jeffrey

    Chairman Menendez, Ranking Member Corker, and members of the 
committee, thank you for inviting me here today. What has happened in 
Ukraine is the most significant challenge to the international order 
since the attacks of September 11. While not aimed directly at the 
United States, the strategic fallout of Russia's aggression against 
Ukraine is, in some respects, more threatening to the global order we 
have helped build and defend over the past century. After all, we are 
not dealing with a terrorist group, but a nuclear-armed U.N. Security 
Council permanent member, one of the world's greatest hydrocarbons 
exporters, intending to regain the international status enjoyed by the 
Soviet Union. To this end, Russia has used all tools at its disposal, 
from gas export blackmail to direct and indirect invasion--from Georgia 
and Syria to Crimea and Eastern Ukraine--to achieve that status, not 
only trampling the values that ground our global order in the process, 
but to a significant degree, attempting to replace it.
    As such, the Ukraine crisis requires action at three levels by the 
United States and its partners. First, we must take immediate steps to 
deal with the situation at hand in a Ukraine being deliberately 
destabilized. Second, we must take long-term steps to counter the 
Russian goal of denying Ukraine any level of independence and stability 
that would permit it to develop relations with the West and avoid being 
absorbed by Russia. Third, Russian actions in Ukraine and elsewhere, 
combined with China's actions in its near abroad, and the ever-
deepening partnership of Russia and China, require us and our friends 
to rethink the very foundations of the international order since 1989.
    The Obama administration has been generally successful at the first 
level and is working hard at the second, but appears at best uncertain 
about the third. Let me describe each of these challenges and 
responses.
    Based on my experience with President Bush during Russia's attack 
on Georgia in 2008, the Obama administration has reacted in a generally 
reasonable way, similar to that of the Bush administration, to this 
latest Russian aggression. It has of course had to adapt to an EU often 
reluctant to act against Russia. It has, correctly, not challenged 
Russia militarily on an issue of vital importance to it but not 
directly to us, in an area not easily accessible for U.S. forces. But, 
as President Obama noted at West Point, his administration has 
mobilized international condemnation, economic sanctions, albeit 
limited, and significant coordination with EU states in response, and 
effectively assisted the new Ukrainian Government. The President has 
taken appropriate military steps to reinforce NATO's eastern marches, 
including ship transits into the Black Sea, aircraft reinforcements, 
and rotating ground troop deployments throughout at least the rest of 
this year.
    These steps have had impact. While sanctions so far have been very 
limited, their very specter has at least temporarily damaged the 
Russian economy, from the value of the ruble and investment outflows to 
GDP growth, and the threat of more sanctions appears to be an effective 
deterrent against new direct Russian aggression. Furthermore, Mr. Putin 
did not count on the power of free men and women to act against 
vassalage. The high turnout and resounding victory of Mr. Poroshenko in 
the elections 10 days ago, and the reluctance of even many Ukrainians 
in alleged ``pro-Russian'' areas of Eastern Ukraine to abandon their 
country, have stymied, at least temporarily, Putin's gambit for an 
easy, ``popular'' win.
    Nevertheless, he has not abandoned his goal ``by other means.'' 
While Russia has pulled back many of its conventional troops arrayed on 
the Ukrainian border, its public line concerning the Ukrainian 
Government remains harsh and dismissive, and it shows no willingness to 
reverse its illegal annexation of Crimea. Most disturbingly, its 
continued direct pressure on Kiev--with deployment of irregular combat 
units to Ukraine to augment Russian nationalists and intelligence 
teams, and additional financial and gas price pressure--demonstrates 
that only the tactics, not the goals, of its campaign against Ukraine 
have changed.
    It is thus critical that the United States, NATO, and the EU 
augment longer term measures to counter this blatant Russian 
aggression. Many of these measures parallel the proposals in the draft 
Russian Aggression Prevention Act under consideration. Given the 
absolute requirement for the United States to act in accordance with 
NATO and the EU in responding to the Ukraine crisis, I would urge that 
the administration be given latitude in deciding which measures to 
implement, how, and when, to ensure we remain synchronized with our 
European partners. But I believe that the most important steps for the 
United States and its friends to take should include the following:

  <bullet> First, lift the ban on lethal weapons and advisory support, 
        including against irregular forces, to the Ukrainian security 
        forces. This is a difficult decision given its impact on 
        Ukrainian Government perceptions, Russian calculations, and 
        European concerns. But refusing direct assistance to a 
        democratic government facing what is unquestionably aggression 
        is a mistake. In the end, such a move almost certainly will not 
        ``provoke'' Putin. He is opting for aggression with or without 
        U.S. ``provocations,'' and while all such steps have risk, we 
        are more likely to gain his attention if we stop ``self-
        deterring'' ourselves. The Ukrainians have earned the right for 
        more support than MREs. To quote the Fall 2004 edition of 
        Middle East Quarterly, providing an account of the 2004 battle 
        of Kut, Iraq, ``The Ukrainian Army . . . soldiers who were 
        stationed at the CPA compound fought valiantly and tirelessly 
        during the assault.''
  <bullet> Second, in line with the President's new initiative 
        announced in Warsaw, strengthen NATO's eastern border 
        countries, not simply with deployments of U.S. light infantry, 
        but by prepositioning battalion-size ``heavy packages'' of 
        tanks, infantry fighting vehicles, and self-propelled artillery 
        in each of the frontline NATO states. The United States would 
        keep a company forward deployed with the remainder of a 
        battalion ready to fall in on the prepositioned equipment. This 
        should be a NATO-blessed deployment, and NATO states should 
        provide a second battalion package in each country. That, plus 
        urgent specialized equipping and training of several local 
        battalions in each country to cooperate closely with this 
        force, would give an almost immediately available reinforced 
        heavy brigade on each NATO country's borders. Aside from the 
        significant defensive enhancement against any new ``Crimea,'' 
        this step would signal Moscow that the United States and NATO 
        are going to defend alliance territory, and that military moves 
        are still in the Obama administration's quiver.
  <bullet> Third, help meet the needs of the Ukrainian economy and its 
        energy sector, along with EU international financial 
        institutions. The IMF has pledged $17 billion, which will be 
        supported by $15 billion from the EU, $1 billion from the 
        United States, and various other sources. This money must be 
        used more wisely by Ukrainians than in the past, but the need 
        is palpable. Providing Ukraine with gas from the European gas 
        net and other energy relief being worked on by the EU and the 
        U.S. Government is critical, especially by the fall.
  <bullet> Fourth, Ukrainian democracy and unity must be encouraged in 
        the U.N. and other institutions, and on the ground. This means 
        support and counsel in the struggle to regain territory taken 
        by separatists. The United States has much experience in 
        stabilization under fire and should help. The Organization for 
        Security and Cooperation in Europe (OSCE) with its Geneva 
        process is assisting on reconciliation with those among the 
        separatists willing to lay down arms and talk. We should 
        encourage Ukraine to reach out to them. But regaining security 
        control is paramount in contested areas, and we need to help.
  <bullet> Fifth, keep the sanctions already in place until Russia 
        ceases its attempts to subvert Ukraine and is willing to 
        discuss the future of Crimea.
  <bullet> Sixth, help Western Europe become less dependent on Russian 
        gas and cash flows. Overall trade and financial exchanges with 
        Russia are limited for the EU, but significant for Russia. That 
        theoretically gives the EU the upper hand. But Russia is a 
        command economy with one man deciding. Europe is a 
        decentralized capitalist economy, with many vested interests 
        and no single leader. Thus, this will not be easy. 
        Nevertheless, initiatives to give Europe more energy options--
        including steps to realize what the Economist estimates as a 
        possible U.S. export of 75 billion cubic meters of gas a year 
        and other measures to promote liquefied natural gas--must have 
        priority.

    But, while Ukraine's fate is not yet secured and will be a risk 
even with these measures, my biggest concern is at the aforementioned 
third level, the underlying message that Putin's many moves against the 
global order portend.
    While on the margins the United States and NATO could have tailored 
relations with Russia differently since 1991, I reject the notion that 
it was Western actions that produced the Russia we face today. Could 
NATO have decided not to expand eastward? Of course, but it is 
difficult to see how that would have assuaged Putin and at least a good 
part of the Russian population who long for the return of a Soviet-
sized empire. After all, while NATO expanded, it simultaneously drew 
down dramatically. U.S. combat brigade equivalents in Europe are down 
from 18 in 1989 to 2 today. Major continental NATO armies, notably the 
British, German, and French, have been drastically cut, with 
conscription ended. The Russian military to the contrary has not been 
reduced proportionally. NATO expansion thus did not increase an 
alliance offensive threat against Russia. Rather, it strove to block 
the re-creation of Imperial and Soviet Russia through force, an 
inherently legitimate goal existential to the free peoples of eastern 
Europe.
    Furthermore, throughout the last 20-plus years the United States, 
NATO, the EU, OSCE, and other international organizations did 
everything possible to fashion for Russia a strategic position in the 
global order, from tens of billions of dollars in direct and indirect 
aid, to massive investments and joint ventures, to subcontracting much 
of Western European energy requirements to Gazprom, to sponsoring 
Russian entry into Western global institutions, most notably the World 
Trade Organization, and reinforcing the Security Council. Clearly 
neither that nor the drawdown of NATO force structure had any effect on 
Putin and many of his countrymen and women. Rather, it is at least as 
likely that by providing him with potential pressure points from gas 
deliveries to local conventional-force superiority, it encouraged his 
policies.
    At this point, we have to consider the stark likelihood of not just 
a Russia, but possibly a China as well, motivated to challenge both the 
international order based on peaceful settlement of disputes, 
international law, and global security, and America as guarantor of 
that system. If, as is likely based on events from Crimea to the South 
China Sea, this threat materializes, the United States will have to 
rethink its entire foreign policy.
    Neither Europe, as we have seen repeatedly in the current Ukraine 
crisis, nor Japan and South Korea, are able on their own to ``pivot'' 
to a new posture. This will require analysis and then action by the 
United States. This potential threat was not covered in detail in the 
President's West Point speech. Furthermore, his recipe for most foreign 
policy challenges--acting only with the support and concurrence of 
international organizations, and within multilateral constraints--is 
unlikely to work against major conventional state competitors. For 
example, such an approach certainly will be impossible at least in the 
U.N. with Russia and China at the table, and very difficult with the EU 
or with our East Asian allies without strong, ``from the front'' U.S. 
leadership, including readiness to use force to defend the current 
system. The administration appears ambivalent about such uses of force. 
But if we wish to avoid a geostrategic shift as dramatic as 1989, only 
in the other direction, then maintaining the integrity of this global 
system must be among our ``vital'' interests.

    The Chairman. Ambassador Green.

    STATEMENT OF HON. MARK GREEN, PRESIDENT, INTERNATIONAL 
REPUBLICAN INSTITUTE; FORMER U.S. AMBASSADOR; AND MEMBER, U.S. 
            HOUSE OF REPRESENTATIVES, WASHINGTON, DC

    Ambassador Green. Thank you, Mr. Chairman. Chairman 
Menendez, Senator Corker, members of the committee, I 
appreciate this opportunity to testify on recent developments 
in Ukraine. I will summarize my written testimony and try not 
to repeat what others have said.
    IRI's mission is to encourage democracy in places where it 
is absent, help democracy become more effective where it is in 
danger, and share best practices where democracy is 
flourishing. Given that mission, it is only natural that 
Ukraine has been an essential part of our programming for more 
than 20 years. In addition to our primary office in Kiev, we 
have operated offices in Odessa and, until recently, in Crimea.
    IRI has monitored all national elections in independent 
Ukraine's history, including the most recent election on May 
25. Our high-level mission was led by Senator Kelly Ayotte, 
your colleague, and included Congressman Peter Roskam, chairman 
of the House Democracy Partnership. We visited more than 100 
polling stations in places like Cherkasy, Kharkiv, and Odessa. 
In preparation for this election, we trained more than 5,000 
observers representing candidates, political parties, and the 
Maidan movement.
    In the view of our observation team, these elections were 
free and fair and met international standards. Of course, what 
makes their accomplishment so remarkable is the wide range of 
challenges Ukrainian officials faced while administering this 
election. In many ways, these challenges remain and need urgent 
attention--and perhaps the help of the West.
    As others have noted, one very obvious challenge they faced 
in recent months was Russian-sponsored violence in the south 
and east. Separatists used high-grade, cutting-edge tactics and 
equipment. There were widespread cases of these violent groups 
taking over radio stations, establishing checkpoints, and in 
one case, shutting down an airport. Well-equipped bands of 
military style forces sought to shut down the election in parts 
of the country, and in a few places they succeeded.
    Another challenge that was and is important and that I do 
not think has received enough attention is the plight and 
tragedy of Crimean Tatars. The history of suffering of the 
Tatar people is well-known. Stalin's forced deportation 
resulted in the death of tens of thousands of Tatars, and they 
were only able to return to their ancestral homeland near the 
end of the Soviet Union. They now make up nearly 15 percent of 
Crimean's population. They have boycotted the illegal Crimean 
March referendum and rejected its results, and the community 
has repeatedly pledged its continued support for a united and 
sovereign Ukraine. Obviously, their courage might not have the 
approval of Moscow.
    Since the beginning of our work in Ukraine, we have sought 
to assist the democratic aspirations of the Crimean Tatar 
people. We have worked with them closely to build communication 
exchanges and to try to link them up, particularly youth, with 
Western Europe and other parts of Ukraine. Unfortunately, we 
are unable to continue that programming in occupied Crimea, and 
we would very much like to return and find ways to help this 
population. In any case, in light of the Russian annexation and 
the Soviet history, we should all be very watchful of how the 
Tatars are able to live and work and hopefully prosper in the 
face of Russian rule.
    In some ways, the most serious challenge Ukraine is facing, 
I would argue, is the overwhelming force of Russian propaganda 
that has been projected into that country, combined with the 
lack of Ukrainian media and social media in certain areas. It 
is hard for any nation to build a sense of national purpose and 
unity when there is a lack of indigenous media. It is nearly 
impossible when that void is filled with hostile, foreign-born 
propaganda bent on destabilizing communities and government 
borders. We should work to help foster independent, truly 
Ukraine-centered media that can reach out to every part of that 
country. More and more people, especially young people, now get 
their news and information through social media platforms. 
Again, there's a lack of social media platforms that are 
Ukraine-centered in parts of that country, and I do believe 
that we can help boost social media platforms that will help 
create a sense of unity and identity.
    One of the most subtle and yet serious, challenges that 
Ukraine has faced, and will continue to face, is a weakened IT 
infrastructure. Recent reports suggest that much of the 
government's IT has been compromised by foreign-sponsored 
viruses. On the day of the election, the IRI delegation learned 
that Russia had launched a major cyber attack aimed at bringing 
down the Central Election Commission's main database. Had it 
succeeded, the elections would have failed and perhaps given 
Ukraine's opponents further pretense for mischief, aggression 
and destabilizing activities. In this day and age, effective IT 
is absolutely necessary for effective democracy and governance.
    Members of the committee, it is too easy to focus on their 
challenges in Ukraine. We should also focus on the hopeful 
signs. As my colleague, Jane Harman, has noted, President-elect 
Poroshenko has already taken significant steps to move the 
country forward. He has indicated that he will retain current 
Prime Minister Yatsenyuk and some other members in the current 
government. He stated his top priorities are to maintain the 
unity of the country by reaching out to the eastern regions, 
tackling corruption and creating jobs.
    Mr. Chairman, recent events in Ukraine make clear both the 
challenges and possibilities that lie ahead. The fact that 
Ukrainians, in the span of a few short months were able to 
remove from office a corrupt but powerful leader and then turn 
around and conduct national elections that met international 
standards is remarkable. The fact that all of this was 
accomplished in the face of threats and violence is historic.
    To be clear, as my former colleague, Jane Harman, has said, 
the Ukrainians, not their friends in the West, are responsible 
for shaping their country's future. They have a unique history 
and a rich culture that is all their own. They want to chart a 
path that meets their own needs and aspirations, not anyone 
else's. As one of IRI's Ukrainian staff proudly said to us 
recently, ``We went to the Maidan to find Europe, and instead 
we found Ukraine.'' This is a great moment for Ukraine and 
potentially a great moment for democracy.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Green follows:]

                 Prepared Statement of Hon. Mark Green

                              introduction
    Chairman Menendez, Senator Corker, members of the Senate Foreign 
Relations Committee, thank you for this opportunity to testify on 
recent developments in Ukraine. Given the present challenges facing the 
Ukrainian people and their newly elected leadership--from rebuilding an 
economy devastated by corruption and mismanagement to defeating the 
efforts of a small, but deadly group of foreign-inspired (if not 
foreign-sponsored) separatists--this hearing is urgently needed. The 
implications of what is happening in Ukraine, especially in areas near 
its border with Russia, could affect developments throughout the 
region.
                       irj's deep ties to ukraine
    The International Republican Institute (IRI) is a nonprofit, 
nonpartisan organization, and one of the four core institutes of the 
National Endowment for Democracy. Our mission is to encourage democracy 
in places where it is absent, help democracy become more effective 
where it is in danger, and share best practices where democracy is 
flourishing. While Ukraine's future is obviously up to Ukrainians, at 
IRI, we believe the community of Western democracies can play an 
indispensable role in providing tools and assistance to help Ukraine 
realize its great potential.
    Ukraine has long been an essential part of IRI's programs. In fact, 
thanks to the support of numerous funders from the United States, 
Europe, and Canada, IRI has been operating democracy and governance 
initiatives there for more than 20 years. In addition to our primary 
office in Kiev, we have operated offices in Odessa and, until recently, 
Simferopol in the Crimean Peninsula.
    In carrying out our mission to support more democratic, more 
accountable governance, we have tried to enhance civic engagement and 
advocacy at the subnational level by increasing civil society 
organizations' capacity and strengthening their linkages with political 
parties. We have worked to foster a national dialogue involving civic 
and political activists from all around the country. For example, we 
have brought together local elected officials from cities which border 
Russia and cities in western Ukraine to learn from each other and 
create a network of reform-oriented leaders. We have sought to increase 
the participation of youth, women, and minority groups in political 
processes. (IRI's Women's Democracy Network (WDN), one of our flagship 
programs, launched a chapter in Ukraine in February 2011. The Ukrainian 
women of WDN started an innovative gender monitoring project during the 
2012 parliamentary election campaign to support women candidates, boost 
the participation of women in political life, and raise people's 
awareness about the importance of women's participation in 
decisionmaking processes at the national level. Later this year, WDN 
Ukraine will establish a special Political Leadership Academy to 
develop potential women candidates.)
    In particular, over the course of many years, IRI has developed 
extensive relationships with the Crimean Tatar community. IRI has 
worked with Tatar civic organizations to enhance their capacity to 
conduct young political leadership schools and public hearings on the 
peninsula. IRI was also the only international organization to observe 
the Tatar community's local elections in 2013.
                      may 25 presidential election
    IRI has monitored all national elections in independent Ukraine's 
history, including the most recent Presidential election on May 25. IRI 
fielded a high-level election observation mission led by Senator Kelly 
Ayotte and included Congressman Peter Roskam, which visited more than 
100 polling stations in Cherkasy, Chernihiv, Dnipropetrovsk, Kharkiv, 
Kiev, Mykolaiv, Odesa, Ternopil, and Vinnitsya. In preparation for 
elections, we trained more than 5,000 observers representing 
candidates, parties, and the Maidan to help ensure the transparency and 
legitimacy of the electoral process.
    IRI observers reported only minor irregularities and none that 
would affect the outcome of the election. Our observers reported that 
the election was well-administered and that polling officials were 
knowledgeable and approached their job seriously, working long hours, 
without breaks to ensure that the election was free, fair, and 
democratic. In areas of the country where nearly 87 percent of the 
population resides, polls were open and voting went smoothly. In the 
limited areas where voting was denied or suppressed--Crimea, Donetsk, 
and Luhansk--it was due either to Russian occupation or interference.
    In short, in the view of the IRI observation team, these elections 
were free and fair, and met international standards. What makes this 
accomplishment especially remarkable is the range of challenges 
Ukrainian officials faced as they administered this election. Some of 
the challenges, as described below, will need urgent attention from the 
Poroshenko government in the months ahead. They also represent 
opportunities for friends of Ukraine (such as the U.S., Canada and 
Europe) to help.
                          violence from russia
    Among the most obvious challenges that Ukrainian officials have 
faced in recent months was the Russian-sponsored violence in the south 
and east. The Russian-sponsored separatists used high-grade, cutting-
edge tactics and equipment. There were widespread cases of these groups 
taking over radio stations, shootings, establishing checkpoints, and in 
one case, shutting down an airport. Well-equipped bands of military 
style forces sought to shut down the election in parts of the country, 
and in a few places they succeeded.
    The appearance of Russian-sponsored special forces without insignia 
or other identification seemed designed to create uncertainty and 
confusion among military and civilians alike. The use of paid 
mercenaries, Russian counterintelligence service (GRU) veterans and 
now, apparently Chechen fighters, presented Ukrainian security leaders 
with new tactical challenges and, no doubt, will be studied by American 
and other Western analysts in months to come.
                    tatars under russian occupation
    Another specific challenge that we at IRI want to bring to the 
committee's attention is the plight and the tragedy of the Crimean 
Tatars. Nowhere have the fears of Russian influence been more acutely 
felt in recent months than in their community in Crimea. The history of 
the suffering of the Tatar people is well-known. Stalin's deportation 
resulted in the death of tens of thousands of Tatars. It was not until 
the final years of the Soviet Union that they were able to finally 
return to their ancestral homeland. These days, Tatars make up nearly 
15 percent of Crimea's population and growing.
    The Crimean Tatar community, represented by the Mejlis of the 
Crimean Tatar people, boycotted the illegal Crimean March 16 referendum 
and rejected its results. Instead, the community has repeatedly pledged 
their continued support for a united and sovereign Ukraine. Now their 
very existence in their homeland is under threat.
    Since the beginning of our work in Ukraine, IRI has sought to 
assist the democratic aspirations of the Crimean Tatar people as they 
built their own internal democracy within representative bodies such as 
the Mejlis and the Congress of Crimean Tatar representatives known as 
the Kurultai. In addition, from 2010 to 2013, IRI conducted a program 
from our office in Simferopol that sought to equip Crimean Tatars, 
particularly youth, with the knowledge and skills necessary to enact 
reforms on the peninsula. IRI also has supported the development of a 
Web site for the Crimean Tatar Mejlis to improve communications between 
that body and its community, and conducted a wide range of programming 
from building the capacity of local Tatar civil society organizations 
to enabling them to be able to conduct young political leadership 
schools.
    IRI also conducted several exchanges for Tatar youth to travel to 
other parts of Ukraine and Western Europe to learn from their 
colleagues and build networks of motivated and politically active 
youth.
    Currently, IRI is unable to conduct programming in occupied Crimea. 
We would like to find ways to partner with the Crimean Tatar community 
in the future through a series of study trips for young political and 
civic activists to both learn from and enhance linkages with their 
counterparts in other regions of Ukraine. We also see a great need to 
foster and build independent media on the peninsula. In any case, in 
light of the Russian annexation and the history of brutal treatment of 
the Tatars, we should all be watchful of how the Tatars are able to 
live peacefully and democratically in the face of Russian rule.
 russian propaganda, lack of ukrainian media and social media platforms
    In some ways the most serious challenge facing Ukraine is the 
overwhelming force of Russian propaganda that has been projected into 
Ukraine, combined with the lack of Ukrainian media and social media in 
certain parts of the country. Using English language television in both 
United States and Europe, the Kremlin has actually convinced many that 
the invasion and occupation of Crimea was merely an administrative 
``correction'' of a Soviet decision made in 1954. It has apparently 
convinced some in the West that the militants it pays and supplies to 
create fear and chaos in eastern Ukraine are citizens who feel 
persecuted due to their ethnicity or language, when polling data 
completely refutes such assertions. The force and effect of such 
propaganda is even more pronounced in Ukraine where there is no access 
to accurate news accounts and analysis at all.
    Of course, more and more people, especially young people, get their 
news and communications through social media platforms. Once again, 
these channels are currently dominated by Moscow, and countervailing 
platforms and views are blocked by Moscow wherever they can be. The 
democracies of the West should help foster free and independent news 
media in Ukraine that can reach all parts of the country. We should, in 
particular, support the creation and protection of truly Ukrainian 
social media that allows users to communicate freely and openly without 
blockage or intimidation. The recently introduced Russian Aggression 
Prevention Act has a number of provisions that support these ideas and 
IRI would welcome the chance to work on this front.
    Mr. Chairman, the cold war has been described by many as a conflict 
of ideals and principles: human rights and free markets versus 
communism and statism. I would suggest that the West is once again in a 
conflict, this time with Russia, over ideas and principles. Russia, 
with an innovative international media program that touts its ``managed 
democracy'' as the best form of government is making great gains in 
this battle of ideas. The United States must lead the way in 
formulating new approaches to counter Russian propaganda. As eloquently 
stated by former Under Secretary of State Paula Dobriansky. the West 
must counter Russian President Vladimir Putin's policies and that 
failure to do so ``will embolden Moscow's aggression against other 
countries with significant Russian populations.''
                  it infrastructure and cyber warfare
    One of the most subtle, and yet serious, challenges that Ukraine 
faced during the election and continues to face today is a weak and, in 
some cases, infected information technology (IT) infrastructure. In 
this day and age, people depend on technology for governance, national 
security, the conduct of elections and many other matters. Recent 
reports suggest that much of the government's computer structure has 
been infected or compromised by foreign-sponsored viruses.
    On the day of the election, the IRI delegation learned that Russia 
had launched a major cyber attack aimed at bringing down the Central 
Election Commission's main database. Had it succeeded, the elections 
would have failed and perhaps given Ukraine's opponents further 
pretense for mischief, aggression, and de-stabilizing activities. While 
the Ukrainian Government was able to fight off the attack, what became 
clear was the vulnerability of Ukraine's IT systems. Ukraine needs help 
in replacing its IT infrastructure and in protecting it going forward.
                         moving ukraine forward
    There are also some hopeful signs for Ukraine as it moves forward 
from these elections. The losers in the Presidential election conceded 
honorably and in ways that can foster unity. President-elect Poroshenko 
has already taken significant steps to move the country forward. He has 
indicated that he will retain the current Prime Minister (Arseniy 
Yatsenyuk) and others in the current government. He has stated his top 
priorities are to maintain the unity of the country by reaching out to 
eastern regions, tackling corruption, and creating jobs.
    President-elect Poroshenko has also indicated that his government 
will undertake important constitutional reforms. A strong democracy 
relies on a constitutional order that protects citizens' rights, as 
well as limits government authority and provides for the rule of law.
    In particular, the new government has expressed its willingness to 
consider amending the constitution with the goal of decentralizing and 
subsequently granting greater power to regional and local councils. The 
direct election of governors, which would certainly result in greater 
decentralization, is one of the changes under consideration.
    The West can and should play a supportive role in facilitating 
changes in local governance. North American and European expertise can 
be brought to bear in providing experience and technical assistance in 
a way that can assist in producing local governments that are more 
accountable to the needs of the Ukrainian people. Similarly, the West 
can play a critical role in advising Poroshenko and his government on 
innovative and effective means to show real results in the battle 
against corruption, which continues to be one of the key concerns of 
voters, and is also detrimental to Ukraine's hopes for greater foreign 
investment.
    Ukrainians stand united in their desire to remain a unified 
country. In IRI's April 2014 public opinion survey, the vast majority 
of Ukrainians (90 percent), even those in the east, want their country 
to remain united. In addition, a majority of Ukrainians (54 percent) 
want Ukraine to join the European Union. Ukrainians deserve a leader 
who will undertake these issues immediately.
           developing a long-term strategy to assist ukraine
    At this critical juncture in Ukraine's further democratic 
development, it is essential that Ukraine's friends support the 
Ukrainian Government and civil society efforts to build a prosperous 
and democratic country. In supporting these efforts, the United States, 
through mechanisms such as the United States Agency for International 
Development, should increase democratic assistance to the country to 
provide support to the newly elected government to enact reforms. There 
is a great need to accelerate government capacity-building to fight 
corruption and build citizen-oriented structures. This will build 
citizen faith in leaders and harness the energy of the Maidan. To 
further promote the development of a diverse and representative party 
system in Ukraine, additional assistance should be provided for the 
development of political parties (particularly new and emerging ones 
resulting from the Maidan movement). In addition, Ukraine's friends 
must seek to enhance the capacity of a burgeoning civil society in 
Ukraine, which rediscovered its voice during the Maidan movement. 
Marginalized groups, such as youth and minority groups like the Crimean 
Tatars, need to be supported in their efforts to develop a democratic 
and unified Ukraine.
    Finally, the U.S. and others should support the building of 
linkages between Ukrainians from eastern, southern, central, and 
western parts of the country. Ukrainians want to learn from each other 
and strengthen relationships with their fellow Ukrainians from 
different parts of the country. They also want to acquire the knowledge 
and skills to be able to build a democratic and prosperous country. IRI 
stands ready to work on these and other great initiatives that can help 
the Ukrainian people.
                               conclusion
    Mr. Chairman, recent events in Ukraine make clear both the 
challenges and possibilities that lie in the months and years ahead for 
the Ukrainian people. The fact that Ukrainians, in the span of a few 
short months, were able to remove from office a corrupt but powerful 
leader and then just weeks later, conduct national elections that met 
international standards, is remarkable. The fact that all of this was 
accomplished in the face of threats and violence sponsored by one of 
the world's most powerful governments is historic. It will take every 
bit of this same resolve, and more, to meet the daunting economic, 
security and governance challenges. At IRI, we believe there are many 
things the U.S. can and should offer to help.
    The Ukrainians, not their friends in the West, are responsible for 
shaping the country's future. They have a unique history and rich 
culture all their own, and they want to chart a path that meets their 
own needs and aspirations, not anyone else's. As one of IRI's Ukrainian 
staff proudly stated recently, ``We went to the Maidan to find Europe, 
and instead we found Ukraine.''

    The Chairman. Mr. Wollack.

 STATEMENT OF KENNETH WOLLACK, PRESIDENT, NATIONAL DEMOCRATIC 
                   INSTITUTE, WASHINGTON, DC

    Mr. Wollack. Mr. Chairman, Senator Corker, members of the 
committee, thank you for this opportunity to comment on recent 
developments in Ukraine.
    With support from USAID, as well as the National Endowment 
for Democracy, and the Department of State, and the Governments 
of Sweden and Canada, NDI has conducted democracy assistance 
programs in Ukraine for the past two decades. Most recently, we 
fielded an international observer delegation for the election, 
which was led by NDI Chairman Madeleine Albright and former 
Spanish Foreign Minister Ana Palacio. And we were also 
fortunate to have Jane Harman as part of the leadership of that 
delegation.
    Ukraine has turned a corner onto a decidedly democratic 
path. At the same time, the country is facing an extraordinary 
set of challenges, some new and some long-standing. Most 
pressing is the external threat from Russia, which has 
illegally occupied Crimea. Russian-backed and armed separatist 
operations in the eastern oblasts of Donetsk and Luhansk amount 
to an undeclared war against Ukrainian sovereignty.
    On the domestic front, the challenges are no less daunting. 
The economy is in crisis. Corruption, by all measures, has been 
rampant, and public confidence in political institutions is 
low. While there has been overwhelming support in both the east 
and the west of the country for Ukrainian unity, there are 
divisions over the distribution of governmental powers. 
External forces are working to exploit and politicize these 
divisions through a campaign of disinformation.
    The Euromaidan demonstrations were sparked by anger over 
the Yanukovych government's abrupt refusal to sign a European 
Union treaty. But they were sustained for 3 months by a more 
basic demand for dignity. They introduced accountability to 
citizens as a requirement of governance. However, the 
redistribution of power from elites to citizens will be 
sustainable only if civic and political leaders find post-
Maidan ways to keep people engaged in politics. The country now 
has the opportunity to translate the energy of this watershed 
moment into a sustainable democratic trajectory, one that makes 
future Maidans hopefully unnecessary.
    The first test of Ukraine's ability to navigate this 
transition was the May 25 Presidential election, and by every 
measure, Ukraine passed that test.
    This was perhaps the most important election in Ukraine's 
independent history. Where they were allowed to cast ballots in 
the vast majority of the country, Ukrainian voices came through 
loud and clear. They voted for sovereignty and democracy, and 
they did so not with celebratory fanfare but with sober 
determination. In observing elections in more than 60 
countries, including previous polls in Ukraine, rarely has NDI 
heard such positive commentary about the process from political 
contestants and nonpartisan monitors alike.
    After President-elect Poroshenko's inauguration this 
weekend, the government will need to pursue open and 
consultative governance practices that incorporate the 
interests of Ukrainians from all regions of the country. He and 
other leaders will need to focus as much on process as on 
policy outcomes. Delivering on citizens' expectations will be 
impossible without encouraging meaningful public participation. 
Beyond the urgent need for economic reforms and the 
diversification of trade and energy supplies, these 
expectations include constitutional changes, including 
decentralization; serious anticorruption measures, the number 
one priority for Ukrainians throughout the country; and 
judicial reform.
    Since February, the Government and the Parliament have 
enacted an impressive set of reforms and civil society 
organizations are helping to shape an ambitious agenda. I draw 
your attention to the Reanimation Package of Reforms, an 
impressive civil society initiative to improve election laws, 
procurement practices, education policy, and access to public 
information among other issues. By listening to and consulting 
with citizens and communicating in clear terms how short-term 
sacrifices will lead to longer term improvements, government 
leaders can help smooth the path to results.
    For political parties, the challenge will be to build 
support from the grassroots up and base policies and strategies 
on citizens' concerns. This will require parties to embrace new 
ways of organizing.
    The Euromaidan movement showed that citizens can wield 
considerable political power. But by their very nature, street 
protests are inchoate. Sustained popular participation requires 
leadership and structures. Channeling the energy of Euromaidan 
into the day-to-day and admittedly less exciting business of 
reform and governance is the next hurdle. These efforts need to 
be disseminated more widely throughout the country.
    It will be important for the national dialogue on ensuring 
rights and representation for all Ukrainians to accelerate and 
deepen. This process, which is now underway, would benefit from 
broader and more active participation from civil society.
    The impact of past U.S. assistance to Ukraine is more 
visible now than ever before. Years of corrupt and inept 
governance masked much of Ukraine's promise. But that sustained 
support from the United States, nonetheless, helped democratic 
groups get established, expand, accumulate skills, and survive 
through political hardships. Also in the new political 
environment, partners of U.S. assistance projects can be found 
among the most active reformers in the Government, Parliament, 
political parties, and civil society.
    Ukraine now needs help in all of its priority reform areas. 
Ukrainian political and civic leaders have been unanimous in 
requesting such support. There are major financial needs to be 
sure. In addition, Ukrainians are eager for technical 
assistance, peer-to-peer contacts, and linkages to 
international counterparts. Just as Ukraine's problems will not 
be solved overnight, international engagement needs to expand 
and aim for the long term.
    Thank you very much.
    [The prepared statement of Mr. Wollack follows:]

                 Prepared Statement of Kenneth Wollack

    Mr. Chairman and members of the committee, thank you for this 
opportunity to comment on recent political developments in Ukraine in 
the wake of the May 25 Presidential election.
                             ndi in ukraine
    With support from USAID, as well as the National Endowment for 
Democracy, the Department of State, and the Governments of Sweden and 
Canada, NDI has conducted democracy assistance programs in Ukraine for 
the past 25 years. These efforts have focused on strengthening citizen 
engagement in issue advocacy, governance, political parties and 
elections, and on women's participation in politics.
    Most recently, NDI fielded an international election observation 
mission that was led by NDI Chairman Madeleine Albright and former 
Spanish Foreign Minister Ana Palacio. Delegation leaders also included 
Wilson Center President Jane Harman, former Hungarian Member of 
Parliament Matyas Eorsi, and former U.S. Senator Ted Kaufman. The 
mission's leadership reflected the importance of a trans-Atlantic 
commitment to a democratic and sovereign Ukraine. NDI also helped 
Opora, Ukraine's largest nonpartisan citizen monitoring group, deploy 
2,000 observers across the country, including to Donetsk and Luhansk, 
and conduct a parallel vote tabulation that confirmed the official 
election results. Along with several European groups, NDI also 
supported 350 observers from the European Network of Election 
Monitoring Organizations (ENEMO), a coalition of the leading citizen 
monitoring groups in Eastern Europe and Eurasia.
                    external and internal challenges
    Ukraine has turned a corner onto a decidedly democratic path. At 
the same time, the country is facing an extraordinary set of 
challenges, some new and some longstanding. Most pressing is the 
external threat from Russia, which has illegally occupied Crimea and 
massed troops on Ukraine's eastern borders. Russian-backed and armed 
separatist operations in the eastern oblasts of Donetsk and Luhansk 
amount to an undeclared war against Ukrainian sovereignty. This 
represents an urgent threat to Ukraine's territorial integrity as well 
as a challenge to the European security order.
    On the domestic front, the challenges are no less daunting. The 
economy is in crisis; corruption, by all measures, has been rampant; 
public confidence in political institutions is low; and citizen 
patience is limited. While there has been overwhelming support in both 
the East and the West of the country for Ukrainian unity, there are 
divisions over governmental structures. While these would not in 
themselves threaten the integrity of Ukraine, external forces are 
working to exploit and politicize these divisions through a campaign of 
disinformation.
                        euromaidan and elections
    The Euromaidan movement and the Presidential election have set a 
solid foundation for Ukraine to address many of its long-standing 
internal challenges. Euromaidan set the stage for the election. The 
election has in turn set the stage for further and deeper reforms.
    Euromaidan was sparked by anger over the government's abrupt 
refusal to sign a European Union treaty, but it was sustained for 3 
months by a more basic demand for dignity and respect from government. 
The Euromaidan demonstrations that began last November fundamentally 
altered the political dynamics in the country. They highlighted 
Ukrainians' demands for change, including more transparent, accountable 
and uncorrupted political practices as well as respect for basic civil 
and political rights. They led to the collapse of a government, its 
replacement by a more reform-oriented and EU-focused interim 
government, and the scheduling of a snap Presidential election. Less 
visibly, they introduced accountability to citizens as a requirement of 
governance for perhaps the first time in Ukraine's history.
    Euromaidan drew participants from across the country and spawned 
similar demonstrations in cities in all regions, reflecting widespread 
consensus on these issues. Public opinion research also demonstrates 
that Ukrainians across regions share a desire for national unity, more 
responsive governance and greater public integrity.
    Tragically, the Euromaidan demonstrations resulted in the deaths of 
more than 100 Ukrainians and injuries to many more. Other deaths in the 
east and south, including those in a fire in Odessa, present the need 
for a concerted reconciliation process.
    However, the redistribution of power from elites to citizens 
prompted by Euromaidan will be sustainable only if civic and political 
leaders find post-Maidan ways to keep people engaged in politics. 
Street protests are blunt instruments for governing and cannot be 
prolonged indefinitely. The country now has the opportunity to 
translate the energy of this watershed moment into a sustainable 
democratic trajectory--one that makes future Maidans unnecessary. It 
remains to be seen how effective this transition to more conventional 
forms of participation will be.
    The first test of Ukraine's ability to navigate this transition was 
the May 25 Presidential election. By every measure, Ukraine passed that 
test.
    This was the most important election in Ukraine's independent 
history. The NDI observer delegation listened to the people of Ukraine 
in meeting halls, government offices, and polling places. Their voices 
came through loud and clear. They voted for sovereignty and they did so 
with determination. They wanted the world to know that Ukraine could 
not be intimidated by external threats. They achieved their purpose.
    By turning out to vote across the vast majority of the country, 
Ukrainians did more than elect a new President. They showed the world 
their commitment to unity and democracy. Their votes conveyed that 
these principles should be valued over geopolitical strategy or 
leaders' personal enrichment. Ukraine's electoral administrators, 
campaigns, government authorities, election monitors and voters showed 
courage and resolve in fulfilling their responsibilities in compliance 
with Ukraine's laws and international democratic election standards. 
The losing candidates deserve commendation for their constructive 
responses to the results. In observing elections in more than 60 
countries since 1986, including previous polls in Ukraine, rarely has 
NDI heard such positive commentary about the process from political 
contestants and nonpartisan monitors alike.
    In most of the country, the elections were generally run well and 
proceeded without major incidents. Voter turnout was 60 percent. The 
preelection period and Presidential election were virtually free of 
formal candidate complaints. Polling station commissioners cooperated 
to facilitate voting and address issues, while large numbers of 
nonpartisan citizen observers and party poll watchers, including many 
women, witnessed the proceedings. Across the country, voters often 
stood in long lines, waiting patiently to cast their votes.
    Isolated problems did crop up. Molotov cocktails were thrown 
overnight at some polling stations, but those precincts opened in the 
morning for voting. On election day, bomb threats temporarily closed 
some stations, but the security forces responded effectively and voting 
resumed. Observers also noted incidents of overcrowding at polling 
sites, police presence inside polling stations, late arrival of mobile 
ballot boxes, and poor accessibility for voters with disabilities. None 
of these concerns, however, diminished confidence in the process or the 
results.
    By contrast, in Crimea, Donetsk, and Luhansk, representing just 
under 20 percent of the electorate, most voters were denied the 
opportunity to vote.
    No polling took place in Crimea due to the Russian occupation. 
Crimea is home to 1.5 million registered voters, representing 5 percent 
of the Ukrainian electorate. The Central Election Commission (CEC) 
reported that approximately 6,000 Crimean residents registered to vote 
in other parts of the country, which was the only procedure available 
to them.
    In Donetsk and Luhansk, two of five Eastern provinces, armed groups 
carried out illegal actions--including seizures of government buildings 
and electoral facilities, abductions and killings of journalists and 
widespread intimidation--aimed at preventing the elections. Even in the 
face of such violations of fundamental rights, electoral officials 
opened 23 percent of polling stations in those two oblasts. 
International and Ukrainian election observers witnessed these 
officials' brave and determined efforts. Ultimately, only small 
percentages of eligible voters in Donetsk and Luhansk were able to cast 
votes.
    Any disenfranchisement of voters is regrettable. Universal and 
equal suffrage for eligible citizens is fundamental to democratic 
elections. However, the three cases of Crimea, Donetsk, and Luhansk 
should not negate the fact that the vast majority of the electorate--
more than 80 percent--had the opportunity to cast ballots for the 
candidate of their choice.
    Also, it is important to note the source of voter 
disenfranchisement. In most countries where NDI has observed elections, 
disenfranchisement has been caused by authorities or political 
contestants interfering with the process for electoral advantage. In 
Crimea, Donetsk, and Luhansk, the responsibility lies with foreign 
forces occupying Ukrainian territory and armed groups seeking to 
prevent voting, despite good faith efforts by election officials. Such 
disenfranchisement cannot be allowed to negate the legitimacy of 
elections or the mandate they provide. Unfortunately, 
disenfranchisement occurred in parts of Afghanistan, Pakistan, and 
Georgia in recent elections due to terrorism by nonstate actors or 
foreign occupation. Nevertheless, those actions did not negate the 
credibility of the overall process.
    All NDI observers commented that the mood surrounding the election 
was marked less by celebratory fanfare than by sober determination, 
reflecting both a recognition of the challenges that lie ahead and a 
resolve to meet them.
                               next steps
    The Euromaidan movement made change possible and the election added 
momentum. The task ahead is to make such change sustainable. After he 
is inaugurated this weekend, President Poroshenko will need to pursue 
open and consultative governing practices that incorporate the 
interests of Ukrainians from all regions of the country. He and other 
leaders will need to communicate effectively the prospect of short-term 
sacrifices and deliver on the longer term expectations of the 
Euromaidan movement. Moreover, they will need to focus as much on 
process as on policy outcomes. Delivering on citizens' high and varied 
expectations will be impossible without opening channels of 
communication and encouraging meaningful public participation.
    These expectations include:

  <bullet> Improved security;
  <bullet> Constitutional reform, including decentralization and 
        outreach to the east and south;
  <bullet> Economic growth and stability;
  <bullet> Anticorruption measures;
  <bullet> Diversification of trade and energy supplies;
  <bullet> Political institutions that channel dissent, facilitate 
        debate and respond effectively to citizens' concerns;
  <bullet> Transparency, integrity, and accountability in all aspects 
        of public life;
  <bullet> An open and fair judicial process; and
  <bullet> A legislative process that is based on consultation and open 
        debate.

    While some of these expectations were articulated on the Maidan, 
public opinion research has shown that they are shared by all 
Ukrainians, including those who did not participate in the 
demonstrations and even those who opposed them. In public opinion 
polls, Ukrainians consistently cite corruption as their top concern. 
Some meaningful reforms have already been undertaken; many more are 
needed for Ukraine to reach its democratic potential.
    For many years, political parties, civil society organizations and 
government agencies were isolated from one another and from citizens. 
However, the building blocks for a more unified and inclusive system 
are now in place. The Rada and the current Cabinet of Ministers 
represent all regions. President Poroshenko was elected with 
pluralities in all oblasts that voted, gaining an inclusive and strong 
public mandate.
    Since February, the Government and the Parliament have enacted an 
impressive set of reforms. Civil society organizations are holding 
politicians accountable and helping to shape an ambitious agenda. I 
draw your attention to the ``Reanimation Package of Reforms,'' an 
impressive civil society initiative to improve election laws, 
procurement practices, education policy, and access to public 
information, among other issues, through civic advocacy and strategic 
cooperation with parliamentary and government allies. It is an 
important example of a successful transition from ``the square'' to 
sustainable political participation.
    The task ahead is for parties, civil society organizations and 
government to become citizen-centric, rather than leader- or oligarch-
centric. Giving citizens meaningful influence over these political 
institutions would contribute to their coherence and effectiveness.
    Government: The government and the parliament are under intense 
pressure to deliver results to an impatient public. Ukrainians have 
historically had limited trust in politicians and parties. One way to 
address this challenge would be to focus on public consultation along 
with meaningful reforms. By listening to and consulting with citizens--
and communicating in clear terms how short-term sacrifices will lead to 
longer term improvements--government leaders would help smooth the path 
to results.
    Political Parties: Ukraine's political parties need to rebuild. 
Former President Yanukovych's Party of Regions is on the wane. Other 
established parties performed below expectations in the elections. Even 
the President-elect's party is small. A coherent and loyal opposition 
to the government has not yet formed. In the past, the leading 
political parties have been top-heavy and personality-driven. Those 
structures are now struggling to survive in the changed political 
environment. However, it is promising to see that some new parties are 
emerging. These groups seem well positioned to infuse established 
parties with new energy or gain traction in their own right. For all 
parties, the challenge will be to build support from the ``grassroots'' 
up and base policies and strategies on citizens' concerns--including 
demands for transparency and public integrity. This will require 
parties to embrace new ways of organizing that are more labor-intensive 
but ultimately more sustainable. Local and parliamentary elections, 
which could be called as early as this fall, will present opportunities 
for building a genuine multiparty system.
    Civil Society: Ukrainian civil society is robust and Euromaidan has 
only added to its vitality. The Euromaidan movement showed that 
determined, organized citizens can wield considerable political power. 
By their very nature, however, street protests are inchoate. Sustained 
popular participation requires leadership and structure. Channeling the 
energy of Euromaidan into the day-to-day and admittedly less-exciting 
business of reform and governance is the next hurdle. Initiatives like 
the ``Reanimation Package of Reforms'' and, before that, nonpartisan 
citizen election monitoring projects and campaigns to defend freedom of 
assembly and other rights set great examples of effective organizing. 
These tactics need to be disseminated more widely throughout Ukraine so 
protesting is no longer the advocacy strategy of first resort.
    It will be important for the national dialogue on ensuring rights 
and representation for all Ukrainians to accelerate and deepen. Indeed, 
this process, which is now underway, would benefit from broader and 
more active participation from civil society.
    The added benefit to resolving these internal crises is that doing 
so puts Ukraine in a stronger position to address the external threats 
to its sovereignty and territorial integrity. The tangible benefits of 
democratic governance and closer ties with Europe and the West will 
ultimately eclipse hollow propaganda to the contrary.
                        international assistance
    The impact of past U.S. development assistance to Ukraine is more 
visible now than ever before. Years of corrupt and inept governance 
masked much of Ukraine's promise. But that sustained support from the 
U.S. nonetheless helped democratic groups to get established, expand, 
accumulate skills and survive through political hardships. Nonpartisan 
citizen election monitors introduced transparency to Ukraine's 
electoral procedures. Initiatives like the Chesno Movement promoted 
accountability among candidates for public office. Civic coalitions 
like ``For Peaceful Protest,'' a long-time advocate for the right to 
freedom of assembly, helped to organize Euromaidan around the 
principles of peacefulness and voluntarism. Also, in the new political 
environment, partners of U.S. assistance projects can be found among 
the most active reformers in the Government, Parliament, political 
parties, and civil society.
    Ukraine now needs help in all of its priority reform areas. In 
NDI's meetings throughout the country over the past 3 months, Ukrainian 
leaders have been unanimous in requesting such support. There are major 
financial needs, to be sure. In addition, Ukrainians are eager for 
technical assistance, peer-to-peer contacts and linkages to 
international counterparts--in the areas of constitutional reform and 
decentralization, civil service reform, procurement, public integrity, 
judicial reform, communications, citizen outreach and engagement, 
transparency and accountability, and political party and civil society 
strengthening. Just as Ukraine's problems will not be solved overnight, 
international engagement needs to aim for the long term.

    The Chairman. Well, thank you all for your testimony.
    And before I start a round of questioning, let me recognize 
that Ukrainian Ambassador Motsuk is here, and we welcome you, 
Mr. Ambassador, to this hearing.
    The G7 statement says we stand ready to intensify targeted 
sanctions and to consider additional significant restrictive 
measures to impose further costs on Russia, should events so 
require. As I listened to what I think was a majority of you, 
it would seem to me that the collective view here--and correct 
me if I am wrong--is that that time is already here. Am I wrong 
in what I have heard, or is that basically what you are saying?
    Ambassador Jeffrey. Yes, the time is here, Senator.
    Ambassador Pifer. Yes. The Russians, I think, are 
thoroughly involved in what is going on in eastern Ukraine, and 
they have the power to stop that if they wished.
    Ms. Harman. And, yes, our asymmetric strength against 
Russia is our economic power. Their economy, even before the 
individual sanctions, was in bad shape, and it has gotten 
worse. And by doing this quickly, although it will be some 
short-term pain for Europe in particular, it will be medium- 
and long-term gain for Europe and for us. We have an energy 
sector, obviously, that could export substantial amounts of 
energy to Europe.
    Ambassador Green. Mr. Chairman, the position of Western 
leaders previously was that if Russia interfered in the conduct 
of the elections, that more sanctions would be coming. I think 
it is clear that they did, in fact, take a number of steps to 
interfere with those elections. So I would argue that the time 
has come, most definitely.
    The Chairman. You mentioned a cyber attack. How do we know 
that to be the case, that it emanated from Russia?
    Ambassador Green. That was actually brought to us by our 
Ambassador, by the U.S. Ambassador in Kiev, and has been 
reported, although not as widely reported, quite frankly, as I 
think it deserves.
    But while they were able to fight it off, it laid bare what 
a number of people have been suggesting, and that is that so 
much of the infrastructure system, which was operated by 
Russian-supported government officials, has been infiltrated 
and is weakened, and that seems a basic way in which it 
happened.
    The Chairman. And, obviously, if they had been successful, 
they could have undermined the veracity of the election and 
therefore pursued their goal. So your point is well taken.
    Let me ask you this. What do you think, from your 
experiences, will affect Putin's calculus? I know what his 
calculus is. At least I think I know what his calculus is. What 
is going to affect his calculus in a way that changes Russia's 
course of events under his leadership?
    Ambassador Pifer. I would argue that the possibility of 
more intense Western sanctions could--and I say could, not 
necessarily will--affect his calculus. If you look at what is 
happening to the Russian economy, it was already in difficulty 
in 2013, but the sanctions and the threat of more robust 
sanctions have increased the problems for the Russian economy. 
And many Russian economists go back and say that Vladimir Putin 
has this implicit social compact with the Russian people in 
which he says you are not going to have much in the way of 
political freedom, but in return, you are going to get economic 
security, a growing economy, and high living standards. And Mr. 
Putin delivered spectacularly on that between 2000 and 2008. 
Last year, some Russian economists were saying tht even the 
projected growth in 2014 of 2 percent would not be enough for 
Mr. Putin to hold up his end of the bargain. So we need to try 
to increase that pressure.
    Now, I should say one of my colleagues at Brookings, who is 
very knowledgeable about Russia--his concern is that what will 
happen is that it may play a different way, that Mr. Putin may 
seize on the sanctions and then use them as the excuse, blame 
the West for the economic difficulties, and then use that to 
sidestep his own economic mismanagement. But I would argue, 
that even if there is just the prospect of changing his 
calculus in the way that makes him change the policy, the West 
should do it because of the egregious nature of Russian actions 
in the last couple of months.
    Ms. Harman. And let me add to that. As we know in American 
politics, it is the economy, stupid. And the polling in Russia 
right now shows nationalism running high, but over time, as 
sanctions bite further--and I do think there should be some 
sectoral sanctions done very carefully. I agree with Ambassador 
Pifer that they need to be done carefully--people in Russia 
will have a lower standard of living. And let us understand 
that Putin already has not learned Colin Powell's Pottery Barn 
rule: if you break it, you own it. He now owns Crimea or at 
least temporarily is renting Crimea. And he is stuck with a 
horrible economy and the need, which he has had to fulfill, to 
increase the pensions and the payments for state workers in 
Crimea, and that is another hit on the Russian budget.
    I think Senator McCain is right when he says Russia's 
economy is a gas station and Russia is a gas station posing as 
a country. And if that gas is turned off, at least with respect 
to Europe, that is a huge hit. He has made a deal with China, 
but I think that shows desperation. That does not show long-
term advantage.
    The Chairman. Ambassador Jeffrey.
    Ambassador Jeffrey. I would like to add that I am very much 
in favor of sanctions, and I think we have seen particularly 
some secondary effects of them. We should continue and 
strengthen them, trying to keep the Europeans on board because 
they will take most of the pain.
    Nonetheless, I am a little bit concerned if we think that, 
to sum it up briefly, 21st century values, economic 
development, people power and such triumphs over aggression, 
over nationalism, and over 18th and 19th century values. I am 
not sure in the parts of the world where I have been deployed 
that that is true, and I really do not think that is true with 
Mr. Putin certainly, because he is very clear in his goals, or 
with the Russian people. His desire--and it seems to have a lot 
of support--is to recreate something like the old Russian 
imperial power as one of the great powers with a droit de 
regard over much of the area around Russia today stretching 
into Eurasia and into Central Europe. This is a very dangerous 
strategy.
    You asked how can we respond against it. He is facing the 
EU and the United States with a $2 trillion economy. We have 
$30 trillion. We have six times the population, two or three 
times the number of forces under arms and far better equipped.
    Why is he doing this? And why is he seemingly having some 
success? Because we are divided. We are not sure what the 
threat is, and in particular, we are reluctant--the United 
States to some degree and the Europeans even more--to meet 
force with force. That is why it is so important to take 
military moves while also strengthening the economic and the 
political sanctions and strictures against him because he does 
not believe we are going to stand up for our values.
    The Chairman. So you would be supportive of the President's 
billion dollar initiative on the security and NATO?
    Ambassador Jeffrey. Absolutely, except it should not be 
contingent upon action. He has the authority. He has the 
equipment. He has the troops to start doing this tomorrow.
    The Chairman. Ken.
    Mr. Wollack. I would just like to make one point about 
Russia's role in the election. We should not lose sight of the 
fact that 17 percent of the electorate was disenfranchised 
either because of the occupation of Crimea or the Russian-
backed separatists in Donetsk and Luhansk.
    The question remains with the fighting still going on in 
these two oblasts where the Russian goal is to make Ukraine 
ungovernable. So the actions to try to destabilize the country 
before, during, and after the elections continues.
    The Chairman. I have a lot of questions, but I am only 
going to say one final question. Then I am going to turn to 
Senator Corker.
    What can Poroshenko do in eastern Ukraine? Some of you have 
talked about decentralization of government. I would like to 
hear exactly what you think that means because, of course, the 
Russians wanted a federated system so they could pick Ukraine 
apart. I assume you do not mean that. Protections for the use 
of the Russian language; or inclusion of more easterners in the 
government? Do some of you have thoughts as to what Poroshenko 
can do to try to consolidate the eastern part of Ukraine as 
part of the national body politic?
    Ms. Harman. We do not want to dominate this at this end of 
the table. But I listed five things, and I think the border 
with Russia is absolutely crucial. From all of the information 
that I have seen on the public record, there are truckloads of 
people who may or may not be Russian but they are coming over 
the Russian border, and they are mostly, we think, Cossacks, 
Chechens, or Russian nationals. So closing that border to that 
kind of traffic is absolutely critical. The Ukrainians probably 
do not have the capacity to do that. Obviously, the Russians 
do. And I think having an international call on them 
specifically to do that right now would at least expose the 
role that they are playing. And I think we are all united in 
understanding what that role is.
    It is tragic that some Ukrainians who wanted to vote were 
prevented from doing that, as Ken Wollack just said. I thought 
it was 13 percent, but he says 17 percent of the country could 
not vote. And then there are, of course, the folks in Crimea 
which we all view as an occupied part of Ukraine, most of whom 
could not vote either.
    Ambassador Pifer. Mr. Chairman, I would make the comment 
that I think Mr. Poroshenko has said that he wants to make his 
first trip as President to Donetsk, and he may well find a 
receptive audience there. It is important to bear in mind the 
majority population in eastern Ukraine is ethnic Ukrainian. 
They may use Russian as their first language, but they are 
ethnic Ukrainian. And polls showed some very interesting things 
in the last several months. The polls show that, while many 
people in eastern Ukraine were uncomfortable with what happened 
in terms of the change of power in Kiev at the end of February 
and that they regarded the acting government as illegitimate; 
70 percent wanted to stay in Ukraine. They did not want 
separation. They did not want to join Russia. Large majorities 
criticized, condemned the armed seizures of the buildings by 
the separatists. They did not want to see the Russian army 
come. So I think there is audience there that he can appeal to.
    I think decentralization of power, to some extent, not as 
far as Russia would like to go, makes sense because the 
Ukrainian Government right now is overly centralized. So, for 
example, making regional governors elected as opposed to 
appointed by the President would be a positive step. Pushing 
some budget authority out to the regions would be a positive 
step in terms of more efficient, effective, and accountable 
governance.
    Also, Mr. Poroshenko has said that there would be some 
status for the Russian language. This seems to be a very touchy 
issue in eastern Ukraine, and there are things I think that he 
can do that would, in fact, begin to make the majority of that 
population in eastern Ukraine feel more comfortable that Kiev 
is looking out for its political and economic interests and 
undercut the support for the separatists that are being backed 
by Russia.
    The Chairman. Ambassador Green, last word.
    Ambassador Green. Mr. Chairman, first off, with respect to 
the polling, IRI has done a great deal of polling. And 
Ambassador Pifer is precisely right. Every part of the country, 
even the area in the far east which may have wanted more 
autonomy from Kiev, wanted to be part of Ukraine, viewed 
themselves as Ukrainian, did not see discrimination, and very 
much wanted to remain part of Ukraine.
    I would argue that what the President-elect needs to do is 
to take a look at what Putin did in the lead-up to this 
election. Putin sought to sow seeds of doubt to destabilize, 
sent agents in, shut down radio stations, and so on and so 
forth. So what I think Mr. Poroshenko will need to do, among 
other things, is to build a media that can communicate non-
Moscow messages, give an accurate picture, provide channels for 
Ukrainians from all parts of the country to get together in 
social media platforms, to communicate with each other and 
exchange ideas.
    Finally, I would argue that a significant exchange program 
which creates east-west, north-south understanding inside the 
country to build a new generation of leaders that think of 
themselves entirely as Ukrainians and not regionally, I think, 
is vitally important. Again, based upon what we have seen from 
President Putin, that is very much what he fears.
    The Chairman. Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    I think it is good to note that we have people on both 
sides of the aisle here that are pretty uniform in their 
thinking about both Ukraine and Russia, and that is good to 
hear. And I think we have a lot of that on our committee.
    So it seems to me it is very evident to all that we have a 
country that has underperformed, has missed 20 years, if you 
will, of development and has huge challenges within the 
country. Then you have this other issue that is of major 
geopolitical significance to the world. They come together at 
Ukraine on the border. They affect much of our policy over the 
last 60 or 70 years that Europe would be whole, democratic, and 
free. So we have two really big issues, and if Ukraine does 
move to the West, it also creates internal issues to Russia as 
Russian people see a country evolving in a very different 
direction from where they are and that certainly poses a threat 
to their leadership there.
    So let me just start. The newly elected leadership is 
impressive. He is an oligarch, I agree, Congressman Harman. At 
the same time, it was not a state-owned enterprise. He did sort 
of make it the, I will not say the honest way, but a different 
way than a lot of the oligarchs.
    Is there any difference of opinion that he is absolutely 
committed to making the transition that is necessary to be made 
within the country? Does anybody feel like that is not the 
case?
    Ms. Harman. I hope he is committed. We have to see what he 
does. We thought Yushenko was committed. We thought Yushenko 
was the new leadership for Ukraine, and he turned out to be 
enormously disappointing. Some people thought that Yulia 
Tymoshenko was the new voice of leadership, and she turned out 
to be very disappointing. So I think it really matters what he 
does.
    Senator Corker, I just had maybe one suggestion for the way 
you framed this. I think that Ukraine is Ukraine. Ukraine is 
not part of Europe. It is not part of Russia. It is a country 
that is situated next to NATO countries. Many people in Ukraine 
are very interested in, and have a long history of, connecting 
to Europe, but some people in Ukraine are also very interested 
in, and have a long history of, connecting to Russia. And I 
think the best outcome for Ukraine is to have a somewhat 
decentralized government where Ukraine can be both and 
certainly latched to Europe. That is in our interest, but I 
also think it is in Ukraine's interest. But if Russia would 
only back off, if we could get this to change, I do not think 
it would be bad for Ukraine also to choose, if it chooses, to 
have robust ties to Russia.
    Senator Corker. And it is very apparent that that is what 
the newly elected president plans to do.
    Did you want to say something, Mark?
    Ambassador Green. I was going to say I was one of those who 
had the chance to meet with Mr. Poroshenko the day before the 
election, and while I absolutely agree the proof is in the 
pudding, he was impressive in laying out a clear agenda for 
what needed to be done, including constitutional reform and 
taking on corruption. So he certainly knows what to do. 
Obviously, I believe that we should be there when requested to 
try to help him get there.
    Mr. Wollack. I think in our meetings with the President-
elect and with the Prime Minister, I think everybody 
understands the challenges that lie ahead, and I think they are 
all deeply committed to these issues. And they realize that now 
there is a second chance for meaningful reforms in the country.
    At the same time, I think we have to put our faith in 
institutions and processes as well and not just individuals. 
And the parliament is going to play an important role. Civil 
society is going to play an important role, and the question is 
whether all these various sectors of society can work 
constructively together in order to achieve the goals that we 
all share.
    Senator Corker. Well, I too was impressed. And I think 
Yatsenyuk is very impressive, and hopefully a team will be put 
together to move things ahead.
    Since I am running out of time, I will stop here, but I was 
going to ask, is there anything that you see the Western 
countries that are involved and care about Ukraine not doing 
other than, I know you mentioned some military equipment and 
training that needs to take place, that should be done now? I 
know it has to be Ukraine itself that makes this happen. I 
could not agree more. But, obviously, assistance from us is 
going to be needed and persistence is going to be needed. Is 
there anything that you see right now? Just if one person could 
respond very briefly because I want to move on to something 
else. Is there anything that you see that is missing right now 
in the complement of efforts that would be helpful to help them 
move along? Yes, sir.
    Mr. Wollack. I would just mention two quick things.
    Number one, I think the commitments on financial assistance 
should not be caught up in bureaucratic hurdles here, that 
funds have to flow in a timely way.
    And second, as my chairman talks about, when Madeleine 
Albright talks about, the Marshall Plan was not only about 
funding. It was also about massive technical assistance. And 
when we met with the government there, they welcomed large-
scale infusion of human resources in the country on all the 
major reform issues. They look to the United States for 
expertise. They look to the diaspora community for expertise. 
They look to the Europeans, particularly Poland, for those 
expertise. Poland is engaged on the constitutional reform 
issues as well. I think on civil service reform, on all of 
these issues, having technical assistance on a large scale 
embedded in ministries and government offices, in civil 
society--this is all welcome. They believe this international 
engagement is critical at this time.
    Senator Corker. So, Mr. Jeffrey, I want to move on to the 
other topic, and that is Russia. I had an executive in my 
office this morning. I will not name the name or the company. I 
do not think he would like that to occur. But you have this 
issue you just mentioned. This is a major geopolitical issue, 
the biggest that has happened since 9/11. And yet, the tools 
that we are willing to use obviously are very different than 
the tools we used in 9/11. I agree, especially having just come 
from Poland, Romania, and Estonia, this is a major geopolitical 
event. And how we respond to this is going to reverberate for 
generations.
    And so you mentioned sanctions, and many of us here have 
pushed for more robust sanctions. Some people would say--this 
executive would say--that we pushed for globalization around 
the world to try to create democracy because we think that our 
way of doing business causes the world to be better place. I 
agree with that. At the same time companies all have become 
intertwined. They all work through joint ventures. And I could 
not agree more.
    I would like to see sectoral sanctions. I think we have 
already crossed the redline, and sanctions ought to be in place 
for what happened in eastern Ukraine.
    But how do you respond to the folks who come in who, I have 
to say, do not have an impact on me in that way, but how do you 
respond to people who say what you just said, and how do you 
respond to the President when he talks about how we do not want 
ourselves to be split from Europe? We want to go with them. Is 
that an appropriate place to be, or should we be even more 
forward than where we are today?
    Ambassador Jeffrey. In my view, you have to stay pretty 
closely synced with Europe, but we do seem to have, in many 
respects, an unusually robust ally in Angela Merkel compared to 
where the rest of the Germans and where much of Europe is. And 
so we can nudge her forward, and there has been some success.
    Senator Corker. Do you really see that?
    Ambassador Jeffrey. I would say that compared to her 
population, she is tougher than most Germans. The overwhelming 
majority of the German population basically on every poll or 
most polls shows understanding for Putin, and this is what we 
have to deal with.
    In terms of the economic issues, it is not a question of 
cutting Russia out of the global economy. We cannot do that. 
They are not Iran. And that is basically not our argument with 
them. The problem is they are able to use blackmailing 
political leverage based upon some of their economic 
activities, most notably selling gas to Europe, and 
secondarily, the way that Russian funds are deposited. I spent 
almost an hour with Putin in 2007 where he harped on this theme 
in a very unpleasant conversation with President Bush. And they 
see this as political weapons.
    So what you need to do is to diversify in the best market 
economy tradition, for example, European gas purchases. And I 
know that that is in the draft bill. But there are other 
seemingly minor things that are so important. The European 
Union is looking to take on the monopolistic aspects of the 
vertically integrated Russian gas industry from production to 
transportation, to actually marketing in many countries, and to 
break that up. Those are the kind of things that will not only 
send a signal but will eventually rob Russia of its somewhat 
strange capability to blackmail an entity, Europe, that is many 
times larger an economy and power in every sense.
    Senator Corker. So I know my time is up, and hopefully you 
can respond to someone else, Mr. Green, in just a minute.
    I want to say I think the biggest fear that I have was 
expressed by someone in Poland last week, and that is that we 
end up accepting a bitter peace with Russia. In other words, 
yes, this is the biggest geopolitical event since 9/11, but we 
are not willing to use the same tools. So we end up in a 
situation where they exude extremely bad behavior. We do not do 
much. And we end up in this bitter peace where we have this 
nation that has broken international norms and laws, reneged on 
agreements, and in order to keep peace, we continue to go along 
in this bitter peace that, in essence, creates a lot of 
insecurity in Eastern Europe and causes people to question the 
United States.
    So with that, I know other people have questions. Mr. 
Chairman, thank you.
    The Chairman. Senator Cardin.
    Senator Cardin. Mr. Chairman, thank you very much, and let 
me thank all of our witnesses for their extraordinary work.
    I want to thank NDI and IRI for their participation in the 
monitoring of the Ukrainian elections under the auspices 
generally of the OSCE. Senator Portman and I were there on the 
ground, had a chance to visit polling stations, and had a 
chance to meet with the leadership of the country. So we share 
your observations, and I thank you very much. We very much have 
similar observations.
    Mr. Jeffrey, I want to just concur in your overall concern 
that the international order of dealing with these types of 
incursions is very much at jeopardy here, and it goes well 
beyond Ukraine. Clearly, what Russia did in Crimea, what they 
are doing in eastern Ukraine violates international commitments 
and agreements, et cetera, and we can go through all of them, 
including the OSCE core commitments.
    But it is also now being looked at in the China seas. I 
went from Ukraine to Vietnam, and all I heard in Vietnam is 
their concern about China in the South China Sea. When I was in 
Japan, I heard about the concerns about the East China Sea. If 
we do not engage a better order, we are going to see what 
happened in Ukraine used by major powers elsewhere to solve 
territorial disagreements.
    So I just want to come on very strongly in support of your 
comments that we need to get NATO involved in Ukraine because 
it does involve the security of our NATO alliance, and we need 
to have an enforceable code of conduct in the China seas so 
that we can restore some semblance of discipline in how we deal 
with territorial disputes.
    I just really also wanted to underscore points that have 
been made of what we need to do in Ukraine. Congresswoman 
Harman, I agree with you completely that the message of 
protesters in the Maidan was much more fundamental than just 
taking sides on ethnic disputes. They want a country that 
responds to the needs of their people, and they want a country 
free from corruption. And that is not going to be easy in 
Ukraine. It is going to take a long-term commitment to get the 
country to perform at the level that the protesters expect and 
will demand.
    So, therefore, first and foremost are our economic programs 
to help them so that they have a performing economy, and I 
think we all agree on that.
    We also need to work internationally. The point that was 
raised about bringing Europe along with our policies is 
absolutely essential. And I really do think President Obama 
deserves great credit for being able to mobilize Europe in a 
more cohesive fashion than we have seen in previous problems in 
other places of Europe.
    But it does require attention to the economics and the 
fundamental economics, which deal also with energy. And we very 
much need to be aggressive in providing short-term and long-
term alternatives to Ukraine on their energy issues.
    It also involves sanctions, Mr. Chairman. I think there is 
total agreement here that we need to be tougher on sanctions 
and that sanctions work and that the threat of sanctions has 
worked. But the threat only works to a certain degree if you do 
not deliver. Russia's actions during the election and the words 
that were given beforehand I think indicate that it is time for 
us to move forward with additional sanctions. They have to be 
strategic, and they have to be well thought out, and they have 
to be in coordination with Europe.
    But I want to get to another point that has been just 
talked about, and that is whether we can affect the balance on 
the border between Ukraine and Russia. Right now, as you 
pointed out Congresswoman Harman, the people from Russia who 
want to come into Ukraine have no difficulty getting through 
that border. And, yes, it would be nice if President Putin 
would do something about it, and I think we have to be very 
firm about that. But President Putin does not do what he says. 
So I do not want to take his word that he will maintain the 
border as being safe for Ukraine against incursions from 
Russians.
    So I think we have a responsibility to help build up the 
border security for Ukraine. I think the United States and 
Europe can play a pretty constructive role in strengthening the 
border security issues. OSCE has capacity here although the 
Russians may make it difficult for OSCE to give that type of 
technical support. But it seems to me that we can find an 
effective way to help Ukraine deal with its own defense of its 
border. And I just would like to get your view as to whether 
that would be a priority, should be a priority, and whether 
that can effectively be carried out.
    Ms. Harman. Well, you know I agree with you. How to do it 
does matter. What the process is does matter. It needs to be a 
Ukrainian response, it seems to me, but inviting in 
international organizations to help is right. The OSCE has an 
interesting position in the country. OSCE convened roundtables, 
three of them, led by Wolfgang Issinger, former German 
Ambassador to the United States, who by the way now is a 
scholar at the Wilson Center. We are very proud of him. And 
those roundtables began to achieve something that Mark Green is 
talking about, which is a conversation in the country to unite 
all the parts of the country. A really good idea. And they are 
going to continue.
    But OSCE is interesting because it is a member organization 
that includes Russia. And I was there in Vienna following my 
trip to Ukraine and was told that the way the procedures work 
at OSCE, Russia is kind of locked in for a 6-month period to 
the actions OSCE is taking in Ukraine. So it seems to me it 
would be really smart to get OSCE mobilized to do exactly what 
you are talking about with help from NATO to increase the----
    Senator Cardin. The mission is in Ukraine. It has been 
there.
    Ms. Harman. Right.
    Senator Cardin. We do have capacity.
    Ms. Harman. And it is in east Ukraine, and to mobilize more 
resources at the border. And then see. Putin responds to 
strength. Let us see him push against that, an organization 
that he is a member of that is just asking for reasonable 
border controls. Big trucks full of armed people, who may or 
may not be Russian, who are destabilizing the country should be 
stopped.
    Senator Cardin. They are going to need technical 
assistance. They are going to need equipment. They are going to 
need more than the international community is currently 
providing.
    Ms. Harman. I would say, yes, surely. I mean, Ukraine has a 
very undercapitalized defense system.
    But I would just end with our strength against Russia is 
our economic strength. I think that is where we can stop Russia 
more effectively, and I think sanctions are by far our best 
weapon. We always talk about the terrorists attacking us 
asymmetrically where we are weak. Where Russia is weak is its 
economy, and sectoral sanctions, that I think everybody here 
supports, done intelligently and quickly could get a very rapid 
response.
    Senator Cardin. I am for that, but I would not trust Russia 
to stop the flow into Ukraine. They need border security.
    Ambassador Pifer. Senator, if I could just add. I agree we 
can do more to assist the Ukrainians in terms of tightening 
their border. But I think particularly in the short term it is 
going to be difficult given the length of the border between 
Russia, Donetsk, and Luhansk. And my guess is as long as the 
Russians are determined to get things across that border, they 
will find ways. So in the short term, the pressure of 
additional sanctions on Russia--we have got to get Russia to be 
part of the solution, not part of the problem.
    Ambassador Green. If I can add, let us also remember the 
history of brush fire battles. We also need to help the 
Ukrainian Government in that part of the country deliver. We 
need to help them build their capacity, build their IT 
infrastructure, help them deliver basic services, and really 
provide the links to the government that those communities are 
looking for that have been taken apart by the destabilization 
activities. Mr. Putin comes in, knocks out the radio stations 
and attempts to sponsor these separatist movements. Success in 
building governing capacity should also be part of the 
solution. I do agree on the hard force side, but it is also 
important, I think, to create that sense of linkages to the 
national government and the kinds of successes that reinforce 
for all those communities why they want to be Ukrainian in the 
first place.
    Ambassador Jeffrey. Senator, I agree with everything my 
colleagues have said, but at the end of the day, what you have 
laid out is a military problem and it is not a military problem 
that we are ignorant of because we saw this in Vietnam. We saw 
it in Iraq. We see it today in Afghanistan where you have an 
insurgency supported and in this case largely generated from 
across the border. It is a tricky problem, as we have seen in 
those other places, but there are ways to deal with this.
    First of all, all of the things stated to strengthen the 
Ukrainian Government, to strengthen the support of the people, 
to strengthen the economy. That then leverages into a 
counterinsurgency strategy of stabilization that puts a minimum 
on force, although force is necessary, and a maximum on 
reconciliation and slowly moving in, picking the low-hanging 
fruit, as you do in any properly organized stability operation, 
so that the area controlled by the pro-Russians does not 
expand.
    Meanwhile, at the same time, you are putting a lot of 
pressure through sanctions, through diplomatic activities, 
through strengthening NATO, which is something Putin does not 
like, watching American ground troops on his western borders, 
to send a signal that it is just going to get worse if you keep 
this up. And what are you gaining? Bit by bit, Ukraine is 
deepening its sovereignty. It is deepening its stability. And 
in the long run, you are not going to win this insurgency. And 
then there can be a time to move this forward. So you need the 
political. You need the economic steps. You need to reach out 
to the population. But it is also a military activity.
    Mr. Wollack. Senator, could I just comment on what you said 
regarding the impact of Ukraine and other places? Moldova will 
be signing the association agreement later this month. It will 
be holding parliamentary elections in November. And I think we 
have to have a very watchful eye on what is happening in 
Transnistria, what will happen following the signing of the 
association agreement in a very small and very vulnerable 
country close by.
    The Chairman. Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Mr. Jeffrey, you just used a business term, which I like, a 
low-hanging fruit, which implies prioritization.
    My colleagues, certainly on the Republican side, realize 
that I really try and address any problem with a strategic 
planning process. What I would like to do is quickly go through 
something like that. The strategic planning process starts with 
describing reality. You cannot deny it. You have to bow to 
reality and then, based on that reality, set yourself 
achievable goals. So I want to just kind of lay out my 
assumptions what the reality is and I want to get your 
reaction, particularly if you are disagreeing with me in terms 
of where I am going wrong.
    The first assumption. It makes no economic sense to Russia 
what Vladimir Putin is doing. There is no economic sense.
    Number two, as a result, this is all about Putin's ego. 
This is all about his ability to maintain control and power.
    Number three, what gives him power is his oil and gas, you 
know, the gas station, and his monopoly control over supply 
which is quite honestly crazy. In business, customers should be 
in control, not the supplier.
    Here is another reality. We can talk about sanctions. I 
have a somewhat contrary view to that. Most of the harm to the 
Russian economy occurred before any sanctions were imposed 
because the world does recognize what he is doing makes no 
economic sense and it is scaring investors. So Vladimir Putin 
has done his own economic harm, and that will continue 
regardless of what the West does. And by the way, another 
reality is because sanctions are a double-edge sword, mutually 
harmful, I do not believe the West will ever have the will to 
impose the kind of sanctions that will affect his calculus 
whatsoever. So we can talk about them. I do not believe they 
are going to be imposed. And by the way, this may be not a bad 
thing. I would rather inflict one-sided pain on Vladimir Putin, 
make him pay a price without us having to pay a price.
    So that is, to me, the assumption that this is the reality 
situation.
    From that, now you establish goals. To me the number one 
short-term goal--and I think it is obvious--is Ukraine must 
gain control over the east. Anybody disagree with that? Okay.
    We need to help them. Right? So we can talk about 
sanctions. They will not get imposed. So we will not be 
changing Putin's calculus, but we can help them secure the 
east. So we need to do those things. That is number one.
    Number two. We certainly, when we were on the ground, heard 
about the incredible effect of the propaganda coming from 
Russia. We need to counter that aggressively. We can do that 
too. Can we not?
    So those are the two, from my standpoint, top priority 
short-term goals.
    Then medium-term. I think this is really what was so 
hopeful about the protest in Maidan is that really was the 
coming together of the Ukrainian people after 20 years to say, 
okay, we are sick of the corruption. So we need to do 
everything in terms of our actions. If we have to tie aid or 
help to make sure that anticorruption laws are passed, I think 
we should do that. That is the medium term. Another part of the 
solution is we have to have a successful government in Ukraine.
    Then long-term. Again, understanding what gives Vladimir 
Putin power is his oil and gas monopolies. We need to break 
that up. So we should be taking actions today to make sure that 
Vladimir Putin understands that his monopoly will not be in 
place, not 2, 3, or 4 years from now.
    So again, that is just my way of thinking. Here are the 
assumptions. Here is the reality, and I think you have to bow 
to it. And here are the goals that we can actually achieve and 
we can help.
    Where am I wrong? What am I missing? I will start with you, 
Congresswoman Harman.
    Ms. Harman. Well, I generally agree. None of us mentioned 
Russian television, but Madeleine Albright who, as I mentioned, 
headed the NDI delegation of which I was a member, speaks 
Russian. And she kept talking about the domination of this 
message from Russian TV into Ukraine everywhere that she went. 
And we do not, and the Ukrainians do not, have an effective 
counter. So I commend you for putting that on the table. I 
think it is a very important short-term goal.
    We have discussed the border. I think everyone agrees that 
more needs to be done on the border.
    In the medium term, my understanding is that there are now, 
as part of this package of laws that Ken Wollack mentioned, the 
Reanimation Package, or at least what has been passed to date, 
some strong anticorruption--there is an strong anticorruption 
law. The problem is it is not enforced. And that should be a 
huge early step of the Poroshenko government, and hopefully 
that happens.
    On the long term, absolutely break up the gas monopoly. I 
still am hoping for sectoral sanctions. But we have an 
opportunity in this country--Tom Friedman, the op-ed writer for 
the New York Times, has called it a grand bargain--to get 
everyone to buy into a package of safe development of energy, 
safe transportation of energy, and then export of energy, a 
variety of energy, not just LNG, to replace Russia as the gas 
station for Europe.
    And there is another point. Senator Markey I think was 
going to be here. But I know he has a notion that we should 
help Ukraine--perfect. I think we rehearsed this. [Laughter.]
    Hello to my former colleague.
    Senator Johnson. If you are going to talk renewable energy, 
again I would think that would rank pretty low on the priority 
scale.
    Ms. Harman. Well, but let me make the point.
    Senator Johnson. Because, again, we have to take a look at 
what is going to be most effective.
    Ms. Harman. All right. Speaking for Senator Markey, which I 
have done for many years----
    [Laughter.]
    Ms. Harman [continuing]. His point is that Ukraine is the 
least efficient user of energy of any of the countries in that 
region.
    Senator Johnson. They have their windows open in the 
wintertime because it gets so hot.
    Ms. Harman. If we could help promote energy efficiency in 
Ukraine, we would reduce Ukraine's dependence on Russia. So 
there are steps like that that we should be taking.
    Senator Johnson. Ambassador Pifer.
    Ambassador Pifer. Senator, I agree with most of your 
construct. I would make just two points. One, I do think that 
there is value in sanctions because otherwise----
    Senator Johnson. Let me ask you. Do you honestly think they 
are going to be imposed to the point where they would actually 
have an--again, if we could actually impose them, I think it 
might affect Vladimir Putin's calculus at a cost to the West. 
So, again, because of that cost to the West, do you honestly 
think they are going to be imposed? Because like Congressman 
Green said, Vladimir Putin has crossed the line. He has done 
what we said if he did we would impose them, and we have not 
imposed them yet.
    Ambassador Pifer. No, I agree.
    I can see sanctions that I think would have a serious 
impact on Russia. I cannot tell you politically that I am sure 
we could bring the Europeans to do that.
    Senator Johnson. That is a real problem. So, again, I am 
just trying to think what is achievable, what is possible. Let 
us do what is possible.
    Ambassador Pifer. But I think there is still a possibility. 
So I think we should still be trying to push because otherwise 
the egregious nature of what has happened--I mean, this is the 
first time since 1945 where a big country has used military 
force to take territory from a small country in Europe. There 
needs to be some penalty for this.
    The other point on the gas question. I think we should be 
doing things, including looking at exporting American LNG, to 
begin to make it more difficult for Gazprom. But I think we do 
have to be realistic. Europe now gets about 30 percent of its 
gas from Russia. Europe will only very slowly wean itself away, 
and we should be finding ways to encourage that.
    I would also agree with what Jane Harman said about working 
with Ukraine. Ukraine has huge possibilities if they get more 
efficient use of their energy to reduce their gas consumption. 
Plus, they also have this possibility, perhaps in 5 to 7 years' 
time, to produce huge quantities of unconventional gas within 
Ukraine. And if the Ukrainians make that happen, they could 
actually be in a situation where by 2020, they perhaps could, 
with the combination of domestic production and importing gas 
not from Russia, but from the West, be in position where they 
would not need any gas from Russia. And that would be a very 
important change in this dynamic that now exists because 
Ukraine's biggest economic vulnerability to Russia now is the 
fact that it depends on Russia for about 60 percent of its 
natural gas.
    The Chairman. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    I would like to continue on this line on energy because we 
have had a number of discussions on this committee. While there 
are some sharp disagreements on the committee about things like 
LNG exports, I think there are also some strong agreements, 
whether it is helping reverse flows of energy back to Ukraine 
from some of its western or northern neighbors working with 
Ukraine to develop its own energy capacity. Algeria is 
interested in more exports of energy under the Mediterranean to 
Europe.
    My sense of the Russian economy is it is a rust belt 
economy with natural resources, and the toughest thing that we 
could do for them is to do just exactly what Senator Johnson 
said and kind of break up that monopoly. So we ought to be 
looking at all of those opportunities even including potential 
resources like Algeria that would like to ship more energy to 
Europe. So it is not just what we can do, although we can do a 
lot, but other partners who would want to help them wean away 
from that monopoly is critical.
    I wanted to ask just about one topic and that is the 
polling about the east, the Donetsk and the eastern area. You 
talked about that earlier, Ambassador Green. The polling is 
pretty strong that huge numbers in the east do not want to be 
part of Russia. They do not want to be severed from Ukraine. 
But the polling is also pretty strong that they have a great 
distrust of the Government in Kiev, and some of that has been 
because of the propaganda campaign from Russia. But some of it 
was also because of steps like this kind of effort to 
potentially strip away Russian as an official language in a 
population that, though Ukrainian ethnic, speaks Russian as a 
first language.
    Obviously, this is something that the President needs to 
address immediately. You have talked about this effort by the 
President to say I want to go to Donetsk first. But maybe in a 
little more granular detail, talk about the kinds of things you 
think the President needs to do right out of the gate to start 
winning over eastern Ukrainians to the notion that Kiev will 
not be stiff-arming us but will be including us and respecting 
our traditions, including the Russian language.
    Ambassador Green. Well, you have just laid out some of it 
yourself. I do think it is important. Symbols are important and 
so are the early steps from Poroshenko in going to the east. 
But it is also, again, capacity building so that the government 
is seen as being able to deliver on some of the basic needs and 
wants in that area.
    I also would not separate out what we have all been talking 
about in terms of corruption. One of the reasons why some of 
the far reaches of the country are so angry with Kiev is 
because the economy was plundered by the previous President, 
all rife with corruption. In many ways, that is what the Maidan 
movement was about. Sure, there were events that sparked it in 
terms of backing out of the movement towards the EU, but it was 
also this basic anger toward a government that was riddled with 
corruption, unable to deliver and unable to provide for basic 
services.
    Couple that with linking that part of the country to Kiev 
in terms of a national dialogue through the media, exchanges 
that create a youth network of reform-minded Ukrainians, those 
may seem like long-term activities. I would argue they are not. 
I would argue they are immediate steps that need to be taken. I 
think each one of those steps would send very important signals 
to that part of the country in addition to all of the other 
things that we have been talking about.
    So in terms of what members of the committee have been 
putting forward, my own view is all of the above. If we are 
looking for simple solutions, I am not sure they are there. I 
think we need to take a very comprehensive approach that has 
both the security aspects to it, to the capacity building, to 
the basic infrastructure that is necessary for delivering 
services, for creating a sense of purpose and unity in having 
that dialogue.
    Senator Kaine. Ambassador Pifer and then Mr. Wollack.
    Ambassador Pifer. Thank you, Senator.
    Let me give you maybe six pieces of a package that could be 
used to overcome the divisions within Ukraine.
    First of all, the government would offer to deescalate its 
use of force if the armed separatists laid down their weapons, 
left the occupied buildings.
    Second, this idea of decentralization, which Mr. Poroshenko 
has already talked about, pushing some authority out to the 
regions and to local levels.
    Senator Kaine. Election of governors rather than 
appointment.
    Ambassador Pifer. Exactly, yes.
    Third would be early Rada elections. The big news about the 
May 25 election was it lifted part of that cloud of 
illegitimacy over the acting government because you now have 
somebody who has a strong democratic mandate. Early elections 
for the Parliament would give the Parliament also a renewed 
democratic legitimacy, and that would be important.
    Part number four would be agreement--and again, Poroshenko 
has talked about this. Some validation, some affirmation of 
official status to the Russian language is a very big issue in 
eastern Ukraine.
    A fifth element would be a very strong and a very visible 
anticorruption campaign. Tens of thousands of people were on 
the streets there. It was in part about the fact that they are 
just tired of corruption that permeates every level of society.
    And I think another part would be his foreign policy 
approach. You have already had people--Mr. Poroshenko, the 
acting government--state they do not want to get too close to 
NATO. Six years ago, I testified that Ukraine was ready for a 
membership action plan, which they were. I have since come to 
the conclusion that NATO is just a very controversial topic 
within Ukraine, and there may be some way for the Ukrainians to 
say without saying ``never'' but to say ``not now'' in a way 
that I think would be useful in avoiding what could be 
otherwise a very controversial topic.
    Senator Kaine. How confrontational or provocative is a 
continued move toward the EU association in eastern Ukraine? 
So, for example, there has been a political agreement, but 
economic pacts are supposed to be signed in June. Is that 
provocative in eastern Ukraine?
    Ambassador Pifer. It is certainly less provocative. 
Particularly among the young in eastern Ukraine, I think that 
they look to the idea of Europe and see that is where they want 
to go. So while maybe not pushing NATO, I think Ukraine should 
go ahead and go forward with the association agreement with the 
European Union.
    Now, the problem that they have is what I believe triggered 
the Russian activity from Crimea's seizure on to what you see 
going on in eastern Ukraine is that the Russians do not want to 
see Ukraine do that association agreement because Ukraine 
moving in that direction becomes irretrievable for Moscow.
    Senator Kaine. So it does not provoke eastern Ukrainians 
but it may be additionally provocative to Russia.
    Ambassador Pifer. Exactly.
    Senator Kaine. I only have 30 seconds. I want to ask one 
very fast question.
    One concern that I had early was the presence of the 
ultranationalist parties in Ukraine and what power they might 
have, parties that have some strong anti-Semitic tendencies. I 
viewed it as a real positive that their candidates of the two 
main ultranationalist parties got less than like 2.2 percent of 
the combined vote in the presidential election. Am I right to 
read that as a really positive trend?
    Ms. Harman. I think it is a very positive trend. They got 
clobbered. But I also think we have to allow free expression in 
the country. I abhor those views, but I think if we try to 
censor and bury those views, we are doing Egypt.
    I just would add one more thing to Steve's list, and that 
is possible amnesty for those in east Ukraine as part of a 
bigger deal. And I would caution against early Rada elections 
because there has to be enough political capacity for all of 
the new voices to be able to run campaigns. We saw that in 
Egypt again. The elections were too early and they could not 
win.
    Mr. Wollack. I would just add one thing too in this. I 
think the Russian actions in Crimea, Donetsk, and Luhansk has 
had the unintended and opposite effect in a majority of 
provinces in the eastern and southern part of the country. 
There is much more eagerness on their part--and the elections 
showed it--for Ukrainian unity as a result of those actions. So 
I think it has had a huge impact.
    I would just also add on the national dialogue, to expand 
and deepen the national dialogue would be something that the 
President could do as well.
    The Chairman. Senator Flake.
    Senator Flake. Thank you.
    It is good to see some of you I have not seen in a while. I 
apologize for missing the oral testimony. But a couple of 
issues, and I apologize if you have covered them.
    How do you believe, Ms. Harman, the Russia-China deal on 
natural gas affects the ability for us to export LNG in an 
effective way? Part of the attraction here is, although it 
would take a while to get the infrastructure in place for it to 
make a real difference, price signals would have been sent 
immediately. To what extent is that nullified by this big 
Russia-China deal?
    Ms. Harman. Well, I said earlier that I see it as a sign of 
desperation. I think Russia was beginning to believe--and I 
still believe it should be a reality--that we, the United 
States and Europe, are going to cut off their ability to sell 
gas to Europe. So they desperately wanted another market. We do 
not know, or at least I do not know, what the terms are of that 
deal. Many people speculate they are not very favorable to 
Russia. And until we know that, I am not sure we can fully 
answer the question.
    But I think there is an enormous opportunity for the U.S. 
energy industry to get its act together, to work with the 
Europeans, and to find new markets in the medium term, 
including the export of LNG. I understand that there are 
regional markets that price LNG, and we do not want to lose the 
enormous cost advantage that we have here in America. On the 
other hand, I think we need to be a little more strategic, and 
if there are international opportunities for us to sell energy, 
not just LNG, to Europe, we should fully explore those.
    Senator Flake. Thank you.
    With regard to sanctions, as we mentioned, Russia has 
already tripped some of the measures. They have passed the 
threshold where we said that we would move forward with 
additional sanctions. The Europeans are not following.
    What in your view, Mr. Jeffrey, will it take for the 
Europeans to come on board?
    Ambassador Jeffrey. First of all, overt Russian military 
action by conventional forces I think is the redline that would 
push the Europeans to take a very dramatic step forward. I do 
not think that Putin is going to do this. I think that is why 
he stood down some of his forces, while he is now using 
irregular forces rather than his own elite spetsnaz types as he 
used in Crimea.
    Nonetheless--and this gets back to Senator Cardin's 
question earlier--even the sort of kiddy sanctions that we are 
seeing and long-term gas and oil and other energy decisions 
that we are discussing here have, as you mentioned, Senator 
Flake, tremendous future implications for the movement of money 
and economic decisions around an integrated world. And it is 
hurting Russia in many ways when we are taking these steps, 
even if they are not bold or major, even if they are not like 
what we did against Iran or, as was earlier said, we do not use 
the tools we used after 9/11. Well, we went into Iraq. We are 
not going to go into Russia that way. But even these minor 
steps have very significant consequences.
    And the other thing is they are hard for us and 
particularly the Europeans to do. Putin does not think that we 
will do hard things. Every time we do a hard or halfway hard 
thing, we are sending a signal to him that who knows what we 
are going to do tomorrow if he keeps this up. And that is a 
good thing.
    Senator Flake. Ambassador Green, when our delegation was 
there just before the seizure of Crimea, the acting Prime 
Minister said, with regard to the Ukrainian military, we have 
nothing that shoots, runs, or flies I believe, or something 
like that. They will develop some of that capacity over time.
    But what are the political implications of using military 
force in the east? How is it played and how will it play in the 
future in terms of the dynamics with the Russian speakers and 
the leanings of some people? What are the military implications 
of action by the Ukrainian Government in the east?
    Ambassador Green. Well, first off, we have been talking 
about, throughout this hearing, it is essential that the 
Ukrainian Government show that it is able to govern and 
actually to deliver. Obviously, a huge part of government's 
purpose is to be able to deliver security along its borders. So 
I think that is terrifically important.
    What you point to is that the infrastructure, security 
infrastructure, military and IT, has been weakened. It has been 
weakened and is currently no match for Russians whether they--
--
    Senator Flake. That goes across the military, police force, 
across the board.
    Ambassador Green. One of the things that we heard quietly 
from Ukrainians is that we are worried that the Russians know 
exactly what we are going to do before we do it because they 
are the ones who helped set up this IT infrastructure in the 
first place. In terms of what the West can do, the West can 
help, can respond to requests, and help the Ukrainians build 
their capacity on all levels to be able to secure the borders 
but also to deliver the basic services that link those 
communities in those areas to a central government.
    Right now, with all the propaganda that they are getting 
from Moscow, with the armed thugs who are going back and forth 
and destabilizing wherever they can and starting problems like 
tossing Molotov cocktails into polling places, it raises doubts 
in the minds of the communities along those borders. My own 
view is that we need to help them assuage those doubts. I think 
a big piece of it is basic capacity building so that there is 
some semblance of governing authority.
    If I can return to something that you said in your remarks, 
which I think is key, we have a tendency in the West to think 
that signals and symbols are only long-term, and I could not 
disagree more. I think what you are talking about is so 
important because sending signals of Western support, Western 
dedication and devotion to not just Ukraine but to the entire 
region is essential because in those communities that have 
historically weaker links to central governments, where they 
are being bombarded with all of these mixed signals, I think it 
is important that they know that the community of democracies 
is there and will be there. So I think it is a long-term signal 
that has an immediate payoff. It is terrifically important 
strategically.
    Senator Flake. Thank you all.
    Thank you, Mr. Chairman.
    The Chairman. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman. I really 
appreciate the discussion that we are having on what our next 
path should be on sanctions. Having spent the last several 
months in pretty close consultations with our European allies 
color me fairly pessimistic that they are ready to take the 
next step. We have referenced in previous hearings the small 
dinner that some of us attended with Chancellor Merkel in which 
she can charitably be described as stuck in her current 
position regarding robust caution on sanctions.
    Some European nations are not sitting still. They are 
actually moving the other way.
    Senator Johnson and I, amongst others, sent a letter to the 
French today asking them to halt their sale of two Mistral-
class warships to the Russians, the very type of warships that 
were actually used in the invasion of Crimea.
    So I want to just pin the five of you down on your exact 
recommendation for us on sanctions because I think we have got 
a good conversation about this. But assuming that the Europeans 
are not willing to move with us on the next level of sanctions 
and to use Ambassador Jeffrey's analogy, a move from kiddy 
sanctions to tiger sanctions, sectoral sanctions--assuming that 
they are not ready, would you recommend that the United States 
precipitously move forward unilaterally with sectoral-based 
sanctions regardless of whether the Europeans are ready to join 
us? And if you can give just quick answers, and if you have a 
caveat, add it. That would be fine.
    Ms. Harman. Well, it is nice to see all my former 
colleagues on the Energy and Commerce Committee in the House.
    I do not think that unilateral sanctions work well. We have 
seen this movie in Iran. I think put maximum pressure on Europe 
and hope that Angela Merkel can be helpful to do this. It is in 
their interests to do this. It will be cheaper in the long run 
to do this. But if Europe will not go along, I would move to 
larger individual sanctions because getting at some more of 
these folks does get at the energy sector. A lot of them are 
major players in the energy sector in Russia, and it does hurt. 
And I think the sanctions that have been imposed to date, not 
fully effective, have had a big bite on Russia.
    Senator Murphy. If people can give quick answers to this 
question. I have one more after this.
    Ambassador Pifer. I think we need to push and see if we can 
do sanctions in concert with Europe, but if Europe will not go 
along, I would agree, more individual sanctions. I would also 
target families. There are ways to keep people who want to 
travel to New York and Miami, for example, from coming here.
    I guess the one area I would look at, if we decide to go 
unilateral, would be in the financial area just because so much 
of the international commerce is denominated in dollars. This 
would require somebody smarter than me about these questions, 
but maybe looking at sanctioning one major Russian bank like 
Sberbank or Gazprombank. Could the United States do that 
itself? I think that would have significant implications on the 
Russian economy, and I think we could have some effect. We 
would have to calculate what blowback there might be against 
the U.S. economy.
    Ambassador Jeffrey. Unilateral sanctions if we cannot get 
concerted ones with the Europeans, but we do have to be 
careful. They should be designed to persuade not provoke the 
Europeans because maintaining solidarity with these guys is 
still very important.
    Ambassador Green. I would agree with what you have just 
heard. Not speaking for IRI here, speaking only for myself, I 
think one of the least reported stories in recent months is 
what has been happening in Moscow and the fact that Putin has 
taken a number of steps to impose restrictions on his own 
people and to shut down dialogue, which means he obviously 
fears the effects of sanctions.
    My own view is that as you have heard here, ratcheting up 
individual sanctions and family sanctions are important 
signals, and I think we should constantly be pushing our 
European allies and remind them of the lines that have already 
been crossed in an effort to try to get broader sectoral 
sanctions.
    Mr. Wollack. NDI does not take a position on sanctions.
    But I would just make the point that I think the Ukrainians 
and I think the international community sees Crimea as lost at 
least for the short term. And I do not think we can afford to 
see de facto occupation in two of the five provinces in eastern 
Ukraine. And whatever can be done to hold Russia accountable 
for what is taking place in Donetsk and Luhansk I think will be 
very, very important.
    Senator Murphy. Here is my second question. We may have 
time for one or two people to answer. But it is a much broader 
question about the future of NATO and the future of article 5 
protections. I agree with you that Europe will certainly react 
if there is a movement of troops across the border, and the 
idea is that they are protected under the mutual defense 
covenant in NATO. But Russia is perfecting a new form of 
warfare in which they do not march troops across the border, in 
which they very slowly but methodically contest areas, gain 
control of areas with a range of tactics from intimidation to 
bribery to provocations to little green men with no Russian 
uniforms. And so this is a longer term challenge for us.
    But is article 5 still a sufficient protection for 
countries along Russia's border?
    Ambassador Jeffrey. Yes, it is, Senator Murphy, as long as 
it is backed with a real capability. That is why it is so 
important that the President has put U.S. light infantry along 
those borders, and I hope through this billion dollar program 
it will be heavier forces and reinforced with NATO.
    To be sure, the light green men were facilitated by the 
presence of 40,000 traditional motorized rifle and tank 
regiments along the border that basically like scissors, paper, 
rock blocked the Ukrainians from taking more effective military 
action in the early days against Crimea. So he has got a very 
sophisticated set of military and paramilitary steps. The first 
capability that the eastern states of NATO need is a stronger 
military with U.S. forces there as we had in Berlin and other 
places so they know it only may be a few Americans today but 
there will be many more tomorrow.
    Senator Murphy. Jane, let me just ask a slightly different 
version of the question to you. Let us say the tactics that are 
being used in eastern Ukraine were used in Romania or Bulgaria. 
Let us say Russia was actively funding separatist movements 
within those nations. My impression is that does not trigger 
article 5, but should we be having a discussion about whether 
that protection is sufficient?
    Ms. Harman. I think we should have a discussion about how 
to meet our NATO obligations. Article 5 is central to that. I 
also think the other NATO members have to put more into the 
fight both in terms of resources and money.
    And a final point on sanctions which I forgot. A senior 
Russian official was recently at the Wilson Center and 
suggested that we yank the visas for Russian Duma members to go 
to the south of France and Florida. They all have their dachas 
there and they love their vacations more than they love their 
political jobs. And that would really get their attention, and 
I think that is something that Europe could go along with even 
if the restaurants in the south of France lose a little money.
    Ambassador Pifer. Senator, if I could just add briefly. I 
think it would be actually very useful within NATO for a 
conversation to be about the appearance of little green men. 
What happens if 150, quote, local protesters seize a television 
station in eastern Estonia? I think NATO ought to have that 
discussion in advance so then when it happens, NATO has an 
answer ready. My worry is that if it happens, it is not going 
to be useful if NATO debates for 4 or 5 weeks whether that is 
an article 5 contingency.
    Senator Murphy. That is my point.
    Thank you, Mr. Chairman.
    The Chairman. Senator Shaheen.
    Senator Shaheen. Thank you all very much for being here.
    And I would like to pursue that line of questioning a 
little bit because it is my understanding that over the next 
few weeks the NATO Defense Ministers are working to develop a 
readiness action plan. And I just wonder if you all could talk 
a little bit about the kinds of things they ought to be 
thinking about, not just with respect to Ukraine, but with 
respect to some of the other countries in Eastern Europe that 
are potential targets for this kind of Russian activity and 
what kind of response we ought to be thinking about from NATO. 
Should we have a more assertive position, either rhetorically 
or in terms of other symbolic actions, that we could be taking 
now that would help send a very strong signal both to Russia 
about taking further action but also to our allies about our 
support for them?
    So I do not know who. If you would like to speak to that 
first, Mr. Pifer?
    Ambassador Pifer. Going back to 1997, NATO has tried to be 
nonprovocative in terms of its military deployments on the 
territory of the countries that joined from 1999 on. So there 
have not been permanent United States deployments in places 
like Poland or Romania or the Baltic States. I think what we 
have seen in the last 3 months, the Russians have fundamentally 
changed the rules. And so now it is time to consider 
something--I think the Pentagon uses the term ``persistent,'' 
but moving toward some kind of a permanent American military 
presence in the Baltic states and Poland. I do not think that 
these have to be large units. I do not think they have to have 
significant offensive capability. They are basically there as a 
trip wire, but that trip wire worked and kept Berlin free for 
35 years.
    The one thing I would add, though, that does bother me a 
bit. And I have tried to talk to my European friends about 
this, that when you look at the on-the-ground permanent 
deployment now in the three Baltic States and Poland, you have 
one American airborne company with about 150 troops in each of 
those places. It should not just be American. What I have been 
trying to lobby for is it would be great if you could have four 
European countries, have a German company paired with the 
American company in Lithuania, a British company with the 
American company in Poland and so on. I think that would be 
very good in two ways, one in terms of sending a signal to 
Moscow that the article 5 commitment is shared by all NATO 
allies. And I think it would also probably send a good signal 
to Capitol Hill where at some point you may be getting asked 
questions about why is this just an American burden.
    Senator Shaheen. Well, I certainly agree with that. I 
wonder if any of you are willing to speculate on why they have 
been so reluctant to do that. Is it because of the concerns 
about the relationship with Russia and their trading 
opportunities and their dependence on energy, or is there 
something else going on?
    Ambassador Jeffrey. First of all, there is the 1997 
agreement, and if you look at the language of it, it is clear, 
as Ambassador Pifer said. The conditions--and it said 
explicitly under the current and foreseeable conditions, we 
will not be making large, permanent deployments. Well, it is 
clear that, God, if the conditions have not changed under what 
we have seen in the last few months, they will never change. 
And secondly, we are not even talking about, as Steve said, 
large and permanent. We are talking about a few companies from 
various countries falling in on what we would call battalion 
packages with the other four companies on alert ready to be 
flown in almost immediately and fall in on their equipment. 
That can very rapidly--I saw it in Kuwait in 1998. That can 
very rapidly generate 5,000 troops. The Berlin brigade was a 
trip wire, but as you remember from those pictures of 
Checkpoint Charlie in 1962, it was a trip wire with M-60 main 
battle tanks.
    If you have a conventional military capability, again you 
block the ability of Putin to intimidate the reaction to the 
infiltration, the little green men, little seizures of things 
along the borders because people can deal with those as police 
problems without having to worry about 10,000 Russian troops 
coming across the border.
    Senator Shaheen. I think that is worth exploring a little 
more, but I want to change the subject. I am sorry. I had 
another hearing, so I was not able to get here to hear your 
testimony.
    But I wanted to explore the economic situation in Ukraine 
because I know early in this crisis, one of the overwhelming 
views that we heard was that if Ukraine's economy does not 
improve, that it creates a situation where the whole country 
could fall. Again, I do not know who wants to address this, but 
if you could speak to where we are in terms of economic 
assistance for Ukraine, to what extent do we think that that is 
having an impact there. Is there more we should be doing? Are 
we seeing the austerity measures that are being called for 
having a negative effect in a way that is challenging? And then 
corruption. Are we seeing any potential positive efforts to 
address corruption in a way that we think will have long-term 
effects?
    Ms. Harman. Well, I think we have all said more or less the 
same thing, but I think I am the only mother and grandmother on 
this panel. And we need tough love here. Everyone cares about 
Ukraine's economic future, but Ukraine has to care about 
Ukraine's economic future. And the anticorruption piece is 
absolutely huge. If the resources from the West just go into 
McMansions for a few oligarchs or fat bank accounts, wherever, 
that is unacceptable. And we have already seen that. So the 
Poroshenko government, which starts Saturday, has to move out 
smartly, and he says that he will do that. That is point one.
    Number two, there will be austerity measures required to 
qualify for IMF loans, substantial, huge IMF loans. Other 
countries like Egypt are not prepared to do this. There is a 
huge political cost to this. When you tell somebody your gas 
bill is going to go up by 100 percent or more, et cetera, that 
is hard to hear. But this is the time. This is the third chance 
for Ukraine for this government to say to folks, hey, you 
fought and died in the Maidan. You want a different kind of 
government. This is what it will take, and after we do this for 
a short period of time, the aid will come and we will build a 
noncorrupt country with a sensible jobs program and your future 
will look brighter.
    Ambassador Pifer. If I could just add. Right now, Ukraine 
has an offer in the next 2 years from the IMF, other 
international financial institutions and western donors between 
$25 billion and $35 billion. So there is a good sum of money 
out there.
    The other bit of good news. My understanding is that when 
the IMF team went to Ukraine in March to talk about the 
program, they said for the first time in dealing with Ukraine 
in 20 years, the Ukrainians said here is the problem, here is 
our to-do list. Every other time, the IMF said here is your to-
do list. This time, the Ukrainians had the right to-do list. So 
they know technically what they have to do, and they understand 
that their ability to access that $25 billion to $35 billion 
will be tied to their continued implementation of reforms.
    I agree with Jane. I think the big question is can they 
sustain the political support for those austerity measures. On 
May 1, as one of their prior actions for the IMF, they raised 
the price of heating. May 1 is a great time to raise the price 
of heating because no one needs it, but in November-December 
when people see their bills up 60-70 percent, that is when the 
government is going to have to come out and say we just have to 
grit and get through this the next couple of years because this 
is key to unlocking the economic potential.
    Senator Shaheen. Mr. Chairman, my time is up, but I know 
Mr. Green wanted to comment on that.
    Ambassador Green. Senator, thank you.
    IRI has been polling in Ukraine for a long time, and we 
have conducted two polls right before the election, as well as, 
of course, the polls themselves in the election. I think the 
good news is the Ukrainian people have their eyes open. They 
understand the path ahead is not going to be an easy one. The 
polling shows that they are prepared for tough measures and 
difficult steps. The polling also shows that the leash may be a 
short one.
    So my own judgment is as long as the government sends clear 
signals that it is moving to take on corruption, there is some 
hope that they will take on these aggravating factors. Then 
they have got a mandate. Then they have got the capacity to 
take these challenges on. The Ukrainian people are well 
educated. Ukrainian people know what they are up against. The 
Maidan is very much still front and center to them and close to 
their hearts and those who tragically were killed in the 
Maidan. So there is a sense of euphoria tempered by realism and 
as long as they start making those very clear steps, I think 
the mandate is there.
    Senator Shaheen. Thank you all very much.
    The Chairman. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    There is an old saying that if you give a person a fish, 
you feed him for a day. If you teach him how to fish, you feed 
him for a lifetime. So that is what we are really talking about 
here.
    Ukraine is the second least energy efficient country in the 
world, second from the bottom. Ukraine, if it just improved not 
to Germany's level, but just to Poland's level, would back out 
almost all of the natural gas it imports. Teach a country to 
fish.
    It has vast untapped natural gas resources. Vast. Third in 
Europe. Teach a country to fish, to develop its own energy 
resources. That is where we should be. That would scare Russia. 
That would petrify Russia. That would be the Ukrainian people 
banding together themselves, saying we must do this.
    So I introduced a bill this morning to deal with this 
Achilles heel of Ukraine, which doubles the funding for the 
State Department, USAID, Export-Import Bank, OPIC, and U.S. 
Trade and Development Agency to deal with this issue both of 
energy efficiency and natural gas development inside their own 
country, to leverage programs that are already there, but to 
bring in our expertise to help them to telescope the timeframe 
that it takes for them to do it. So that is, without question, 
where we have to be as a nation. That is our opportunity.
    And exporting LNG from our country--that might heat their 
homes for a day. We can do that. But that is really not where 
we should be.
    And I will just add parenthetically here for those who are 
criticizing President Obama's plan on Monday that the EPA 
announced to reduce our greenhouse gases, and who are decrying 
the increase in electricity rates here in America for doing 
that are the very same Republicans who are also supporting 
exporting our natural gas, which is going to so dramatically 
increase our own domestic electricity rates that it will dwarf 
any increase that comes from the President's announcement on 
Monday about what the EPA is doing. It is not even close, if 
that is a concern.
    But back to this subject, which we should be able to work 
together on on a bipartisan basis, that is where we should be, 
and that is what we should be leveraging.
    You are an expert on this, Congresswoman. Can you talk a 
little bit about energy efficiency, about this whole area, and 
how dramatic a difference you believe it can make, given your 
own experience with your lighting legislation here in America. 
You really do know this issue cold.
    Ms. Harman. Thank you, Senator Markey. It is kind of 
interesting to see you at the bottom of the queue on the 
committee. This is a new for me.
    Senator Markey. A little bit of humility is a good thing.
    Ms. Harman. You are very humble now.
    Senator Markey. I am proud of my humility.
    Ms. Harman. You and I worked closely together on energy 
efficiency, and so did all of our colleagues on the House 
Commerce Committee, and I think we did pretty well. And you 
mentioned light bulbs, which were a bipartisan initiative and 
passed on a bipartisan basis. Efficient light bulbs seems like 
a little thing, saves a huge amount of energy. We also did 
building standards and we did fuel efficiency and we did a 
number of other things.
    I cannot vote here anymore, but I certainly support your 
initiative to help countries help themselves. It is a point we 
have all made about tough love for Ukraine. They have to take 
these steps, but we could give them tools that would help them 
take these steps. So I think others may want to comment, but I 
think this is a very good angle.
    Finally, I said something--I am not sure you were here--
about using our asymmetric strength against Russia. Our 
asymmetric strength is our economy. Our asymmetric strength is 
some of our good ideas like these. And the aid we give Ukraine 
could help with these ideas. And that would go a lot further 
than some of the other ideas that are more kinetic.
    Senator Markey. May I ask each one of the witnesses--just 
very briefly. I do not have a lot of time--on this question of 
energy efficiency, natural gas? We have to help them with the 
reverse flow and other issues. Do you all agree this is an area 
we should really zero in on, and that will make the bigger 
long-term difference than any change in the LNG marketplace?
    Ambassador Pifer. Certainly energy efficiency in Ukraine 
and helping Ukraine produce its own natural gas is a big thing. 
I think we actually may be moving in that direction. In 2012, 
the price that Ukrainian households paid for their heating gas 
was one-sixth the price that Ukraine was paying to import that. 
By raising the prices, they are going to introduce a huge 
incentive for all of those households to close the windows.
    Senator Markey. Ambassador Jeffrey.
    Ambassador Jeffrey. Absolutely, as two major components, 
along with others, and I would include us exporting LNG and 
encouraging Europe to get it from other sources as well.
    Senator Markey. Even if it does increase electricity rates 
in the United States.
    Ambassador Jeffrey. For reasons that go well beyond the 
Ukrainian problem.
    Senator Markey. Congressman.
    Ambassador Green. Senator, IRI does not take a position on 
energy legislation nor sanctions legislation. I will say that 
we believe in a comprehensive approach. So it is almost all of 
the above in terms of building capacity in Ukraine.
    Mr. Wollack. With regard to technical expertise, however, 
the Ukrainian Government welcomes--on energy diversification 
and a host of all the reform issues, they welcome technical 
expertise in a major way as they go forward.
    Senator Markey. I think that we really do have a huge 
opportunity here, and the more we learn about this country, the 
more we can see that it can be transformed in the blink of an 
eye. They could increase their energy efficiency by 10 percent 
in 2 years. They could increase their energy efficiency by 50 
percent in 5 years. We have to use every bit of leverage that 
we have in order to help them accomplish that goal. That is 
what is going to keep Gazprom up at night with nightmares. That 
is why China looms larger in their life because they are going 
to see a market shrinking dramatically, and their geopolitical 
leverage as well, because that is what it is really all about.
    Whether you talk about Syria or Iraq or Libya, 
unfortunately, oil underlies a lot of each one of those 
regions, and here we really get a chance to do something for 
them that makes them self-sustaining. And my hope is that we 
can talk about this issue on a bipartisan basis in the 
committee and get right at the heart of their weakness, get 
right at the heart of what this whole story is about, which is 
their necessity today of importing natural gas. But it is 
something that we can really change dramatically, and have 
Ukraine say to Russia, we do not need your natural gas any more 
than we need your soldiers. And that is a statement they should 
be able to make in the very near future if we help them to 
construct a plan and if we give them the help they need in 
order to be successful.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Markey may be the newest 
member of the committee, but he is front and center on energy 
policy and global affairs. And we appreciate his expertise on 
the committee.
    Two final questions. Ambassador Green, you have talked 
about this several times in your answers, and I would like to 
hear some other views as well. In Ukraine, yes, but in all of 
Eastern Europe the saturation the Russians have created with 
their broadcasting into the region, of course, is not open-
ended broadcasting in terms of views. It is very much directed 
by the state.
    What more should we really be doing with Voice of America 
and Radio Free Europe to quickly increase our level of 
engagement in this region, so that in addition to a 
domestically-created series of social networking platforms, 
there are additional opportunities for multiple voices to be 
heard?
    Ambassador Green. Senator, I would argue that we should 
boost those programs, boost them into the regions, but we 
should also take a look at the social media platforms. There 
are ways that we can help to create anchors outside of the 
region such that it makes it harder for mischief. It makes it 
harder for the Russians to come in and shut them down. So it is 
helping to provide the technical expertise to foster the 
development of social media platforms that are indigenous in 
the region, but also taking steps to help reinforce and protect 
them from hostile moves such as we saw in eastern Ukraine.
    The Chairman. Anyone else have thoughts?
    Mr. Wollack. I would say we can also work with the Poles 
and others in Eastern Europe. So this is not just something the 
United States is doing. I think we have a lot of friends in the 
region in which we can enhance their capacity for broadcast and 
communications in Ukraine and also bolster the Ukrainian 
capacity in this regard as well.
    The Chairman. Jane.
    Ms. Harman. Well, just to reinforce Mark Green's earlier 
comments about social media, I think there is a huge voice in 
Ukraine that knows how to speak for itself. It just needs 
resources.
    The Chairman. One final question, which I think is really 
an important one, but one which, in the focus of Ukraine, we 
have not talked about, and that is the nuclear nonproliferation 
implications of what has happened in Ukraine. Ukraine 
voluntarily surrendered their nuclear weapons that they 
inherited from the former Soviet Union, in exchange for a 
commitment by Russia, as well as the United Kingdom and the 
United States, to respect Ukraine's territorial integrity.
    Are there implications for global nonproliferation regimes 
with the loss of Crimea and the threat to eastern Ukraine? Is 
there a conclusion that if Ukraine had retained these nuclear 
weapons, the loss of Crimea would not have happened and 
therefore possession of nuclear weapons is the only guarantee 
of territorial integrity when threatened by another nuclear 
power such as the Russians? I am concerned that at some point 
some are going to rivet their attention to that. In some of my 
travels, I have heard a little bit of that from other 
countries. I would like to hear if anybody has any perspectives 
on that.
    Ambassador Pifer. Mr. Chairman, actually I helped negotiate 
the 1994 Budapest Memorandum of Security Assurances, which was 
part of the agreement by which Ukraine gave up its nuclear 
weapons.
    And I think one of the tragedies of what the Russians have 
done with their assault and the annexation of Crimea and in 
their continued action in eastern Ukraine, which is violating 
the commitments they made in that document to respect Ukraine's 
territorial integrity, sovereignty, not to use force against 
Ukraine, is that they have now devalued the idea of security 
assurances which could have been a tool in other proliferation 
cases. For example, it might have been part of the solution on 
Iran or North Korea at some point. And so one of the reasons 
why I think it is now incumbent on the United States and 
Britain, who cosigned the Budapest Memorandum--one of the 
reasons why we should be doing things to support Ukraine but 
also to penalize Russia is to make clear that there are, in 
fact, consequences for violating those sorts of commitments. 
But the Russians have done grievous damage to the ability of 
security assurances of the Budapest Memorandum kind to be part 
of a solution in future proliferation cases.
    Ambassador Jeffrey. I agree with Steve.
    But from the standpoint of the Middle East where I spent 
much of my time and effort in the past and now, what is 
important is what happens in the days, weeks, months, years 
ahead. If the Russian action is punished at an ever greater 
degree of power by the international community, if Crimea is 
not acknowledged as basically Russian, the way we just forgot 
about South Ossetia, if we can show that there are military and 
other actions that, first of all, will preserve the bulk of 
Ukraine will make it a vibrant part of the Western community in 
the future, then I think countries will say, yes, led by the 
United States, the West stood up to that aggression. And there 
is an international alternative to us developing not just 
weapons of mass destruction but large armies and little 1914 
kind of local coalitions and other things that, taken together, 
are going to undercut this global order. So we have got a lot 
of work ahead of us to ensure not just for the sake of Ukraine, 
but for the sake of nonproliferation and the overall 
international order that, just to quote an earlier American 
President, ``this shall not stand.''
    The Chairman. Well, this has been a very insightful panel. 
We appreciate you all sharing your time, as well as your 
expertise and your insights.
    This record will remain open until the close of business on 
Friday.
    And with the gratitude of the committee, this hearing is 
adjourned.
    [Whereupon, at 12:10 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


Prepared Statement of the NDI Election Observer Delegation to Ukraine's 
        2014 Presidential Election Submitted by Kenneth Wollack

    This preliminary statement is offered by the National Democratic 
Institute (NDI) election observer delegation to Ukraine's May 25, 2014, 
Presidential election. Former Secretary of State Madeleine Albright, 
NDI's chairman, and Ana Palacio, former Foreign Minister of Spain, 
cochaired the delegation. Other members of the delegation's leadership 
group included former U.S. Senator Edward ``Ted'' Kaufman of Delaware; 
former U.S. Representative Jane Harman of California, director, 
president and CEO of the Wilson Center; and Matyas Eorsi, former member 
of Parliament from Hungary and former member of the Parliamentary 
Assembly of the Council of Europe.
    This preliminary statement is offered as votes are being tabulated 
and any electoral complaints that may be lodged are yet to be 
processed. NDI therefore does not seek to offer its final analysis of 
the election, and it recognizes that ultimately the people of Ukraine 
will determine the meaning of the election as they exercise their 
sovereignty. NDI's mission operated in conformance with the Declaration 
of Principles for International Election Observation and Ukrainian law, 
and it cooperated with nonpartisan citizen election monitors and other 
international observer missions that endorse the Declaration.
    The delegation wishes to express its appreciation to the United 
States Agency for International Development (USAID), which has funded 
the work of this delegation and, along with the National Endowment for 
Democracy (NED) and the Swedish International Development Cooperation 
Agency (SIDA), has supported NDI democracy assistance programs in 
Ukraine.
                                summary
    Ukrainians have achieved a democratic milestone. By turning out to 
vote yesterday across the vast majority of the country, Ukrainians did 
more than elect a new President. They showed the world their commitment 
to sovereignty, unity, and democracy. Their votes expressed the clear 
aspiration that these principles be valued over geopolitical strategy 
or leaders' personal enrichment. Despite constraints, Ukraine's 
electoral administrators, campaigns, government authorities, election 
monitors and voters showed courage and resolve in fulfilling their 
responsibilities in compliance with Ukraine's laws and international 
democratic election standards. The candidates deserve commendation for 
their constructive responses to the results.
    The Russian occupation of Crimea prevented any voting in that 
region. Armed groups interfered with electoral preparations and voting 
in large parts of the Donetsk and Luhansk oblasts--two of five eastern 
provinces. The disenfranchisement of voters in these places represents 
a serious violation of rights. At the same time, it does not negate the 
legitimacy of the overall election or the mandate it provides. A 
democratic election process should not be held hostage to foreign 
occupation or illegal actions by armed separatists seeking to disrupt 
the democratic process.
    In those places where voting took place, the elections were 
generally well run and proceeded without major incidents. Large numbers 
of domestic and international observers mobilized across all of Ukraine 
to safeguard the integrity of the process. In observing elections in 
more than 60 countries since 1986, including previous polls in Ukraine, 
rarely has NDI heard such positive commentary from political 
contestants and monitors.
    This democratic election can begin a process to reinforce public 
confidence in the country's political institutions. The task ahead for 
the new President, as well as other political and government leaders, 
will be to pursue open and consultative governing practices that 
incorporate the interests of Ukrainians from all regions of the 
country. The leaders must communicate effectively the prospect of 
short-term sacrifices, and deliver on the longer term expectations of 
the Euromaidan movement.
    The task is great. These expectations include:

  <bullet> An accountable government;
  <bullet> Political institutions that channel dissent, facilitate 
        debate, and respond effectively to citizens' concerns;
  <bullet> Transparency and integrity in all aspects of public life;
  <bullet> An open and fair judicial process;
  <bullet> An electoral system that encourages new faces and ideas; and
  <bullet> A legislative process that is based on consultation and open 
        debate.

    These are ideals to which even established democracies aspire, but 
Ukraine has reached a moment in history where that path is once again 
open to it. Some meaningful reforms have already been undertaken; many 
more are needed for Ukraine to reach its democratic potential.
                          i. political context
    This was the most important election in Ukraine's independent 
history. It 
came at a critical moment following a groundswell of citizen political 
engagement prompted by the Euromaidan movement and amid challenges to 
the country's sovereignty and territorial integrity.
    The Euromaidan demonstrations that began in November 2013 
fundamentally altered the political dynamics in Ukraine. They 
highlighted Ukrainians' demands for change, including more transparent, 
accountable, and uncorrupted political practices as well as respect for 
basic civil and political rights. Euromaidan was sparked by anger over 
the government's abrupt refusal to sign the EU-Ukraine Association 
Agreement, but it was sustained for three months by a more basic demand 
for dignity and respect from government. Euromaidan drew participants 
from across the country and spawned similar demonstrations in cities in 
all regions, reflecting widespread consensus on these issues. Public 
opinion research by several respected sources through April and May 
also demonstrates that Ukrainians across regions share a desire for 
national unity, more responsive governance and greater public 
integrity.
    Tragically, the Euromaidan demonstrations culminated in the deaths 
of more than 100 Ukrainians and injuries to many more. Other deaths in 
the East and South, including those in a fire in Odessa, present the 
need for a concerted reconciliation process.
    The country is facing serious challenges: an economic crisis; an 
inherited deficit of confidence in political institutions; internal 
differences of opinion about the country's future course; and most 
significantly, occupation of territory and, in other regions, armed 
insurrections aimed at disrupting political processes. An inclusive 
public mandate will help the government address these challenges.
    In the aftermath of the May 25 vote, it is hoped that the national 
dialogue on ensuring rights and representation for all Ukrainians will 
accelerate and deepen. The best legacy of Euromaidan would be a 
politically active and engaged citizenry combined with responsive and 
accountable institutions that together preclude the need for future 
Maidans. It will take concerted efforts from all citizens of the 
country to address the many economic, political, and security 
challenges facing Ukraine in the days and months ahead.
    The international community has a critical responsibility to be 
engaged over the long term with assistance--financial, diplomatic, and 
technical. This support must be set in the context of respect for 
territorial integrity, promotion of fundamental rights, and a 
commitment to the country's democratic and economic development. 
Ukrainians have said that they welcome technical assistance, which 
would be integrated into their reform efforts.
                            ii. election day
    Three types of elections were held on May 25: the Presidential 
vote; one single-mandate parliamentary race; and a series of local 
polls (more than 40 mayors, including Kiev, 27 settlement executives, 
200 village executives, plus two city councils, including Kiev, and 
three village councils).
    In 23 of Ukraine's 27 administrative units (24 oblasts, the 
republic of Crimea, and the cities of Kiev and Sevastopol), the 
elections were generally well run and proceeded without major 
incidents. Overall turnout is now estimated at 60 percent. By contrast, 
in Crimea, Donetsk, and Luhansk, representing just under 20 percent of 
the electorate, most voters were denied the opportunity to exercise 
their franchise.
    In most of the country, voting proceeded unhindered. The pre-
election period and Presidential election were virtually free of formal 
candidate complaints. Political party representatives comprising the 
polling station commissions (PECs) cooperated with each other to 
facilitate voting and address issues, while large numbers of 
nonpartisan citizen observers and party poll watchers witnessed the 
procedures, including many women among their ranks. Across the country, 
voters often stood in long lines waiting patiently to cast their votes.
    Isolated problems were significant in some places, including, for 
example, Molotov cocktails thrown at three PECs the night before the 
elections in the southern city of Kherson, though all opened on time 
for voting, and in Mykolaiv, also in the South, bomb threats briefly 
closed at least seven PECs, though voting resumed in each of them. The 
delegation did observe incidents of overcrowding at polling sites 
(particularly in Kiev, Lviv, and Sumy), police presence inside polling 
stations (in Zaporizhia), and late arrival of mobile ballot boxes 
(Odessa). Also, most polling places were not easily accessible by 
voters with disabilities. There were concerns prior to the elections 
about a possible lack of quorums of polling site officials, problems 
related to large-scale substitutions of those officials immediately 
prior to the elections, and the inability of security forces to respond 
to disruptions. These concerns, however, were not realized.
    No polling took place in Crimea due to the Russian occupation. 
Crimea is home to 1.5 million registered voters, representing 5 percent 
of the Ukrainian electorate. The Central Election Commission (CEC) 
reported that approximately 6,000 Crimean residents registered to vote 
in other parts of the country, which was the only procedure available 
to them.
    In Donetsk and Luhansk, illegal actions by armed groups--including 
seizures of government buildings and electoral facilities, abductions 
and killings of journalists and widespread intimidation--aimed to 
derail the elections. Even in the face of such violations of people's 
fundamental rights, electoral officials opened nearly 20 percent of 
polling stations in those two oblasts. International and nonpartisan 
Ukrainian election observers witnessed their brave and determined 
efforts by these officials.
    The delegation deeply regrets any violations of voters' rights to 
exercise their franchise, including those which occurred in Crimea, 
Donetsk, and Luhansk. Universal and equal suffrage for eligible 
citizens is fundamental to democratic elections. However, these three 
cases should not negate the fact that the vast majority of the 
electorate--well more than 80 percent--had the opportunity to cast 
their ballots for the candidate of their choice.
    Also, it is important to note the source of voter 
disenfranchisement. In most countries where NDI has observed 
disenfranchisement, it has been caused by authorities or political 
contestants interfering with the process for electoral advantage. In 
Crimea, Donetsk, and Luhansk, the responsibility lies with the foreign 
forces occupying Ukrainian territory and armed groups seeking to derail 
the electoral process, despite good faith efforts of election 
officials. Such disenfranchisement cannot be allowed to negate the 
legitimacy of elections or the mandate they provide. Unfortunately, 
disenfranchisement has occurred in parts of Afghanistan, Pakistan, and 
Georgia in recent elections due to terrorism by nonstate actors or 
foreign occupation. Nevertheless, those actions did not delegitimize 
those elections.
Election Observation
    Large numbers of nonpartisan citizen election observers mobilized 
across all of Ukraine to safeguard the integrity of the election 
process and promote public confidence. The Civic Network Opora and the 
Committee of Voters of Ukraine (CVU) each mobilized approximately 150 
long-term monitors and issued reports leading to the elections; each 
group fielded approximately 2,000 election-day observers in all 
regions. Opora also mounted systematic election-day observation of the 
voting, counting and tabulation processes through deploying monitors to 
a representative statistical sample of polling stations that allowed it 
to issue reports on the quality of the opening of polls, turnout and 
critical aspects of the processes.
    These observers had full access to the processes under the law, the 
authority to lodge official electoral complaints and witness entry of 
results at the district election commissions (DECs) into the CEC's 
computerized results tabulation system. This level of transparency 
added to confidence in election-day procedures. Ukrainian citizen 
observers courageously deployed to all parts of the country except 
Crimea. At times they faced difficult circumstances.
    The OSCE's Office for Democratic Institutions and Human Rights 
(OSCE/ODIHR) was responsible for organizing approximately 1,000 
election-day observers, including 100 long-term observers (LTOs) who 
were in place across across the country beginning on March 27, except 
in Crimea. This effort was joined by the OSCE Parliamentary Assembly, 
the Parliamentary Assembly of the Council of Europe (PACE) and other 
bodies. The European Network of Election Monitoring Organizations 
(ENEMO) deployed 50 LTOs and 300 additional election-day observers. The 
International Republican Institute (IRI) also observed the election. 
These observer missions, along with NDI, cooperated in their 
observation efforts. Each of these missions reported that they received 
cooperation from election authorities at all levels.
          iii. electoral framework and preelection environment
    The pre-election period was compressed due to the constitutional 
requirement to hold elections within 90 days of a President being 
unable to fulfill the duties of the office. Nonetheless, NDI has rarely 
heard such positive commentary on the election process as it has from 
contestants and observers in these elections. This includes the 
Institute's monitoring of elections in more than 60 countries since 
1986, including previous polls in Ukraine. Traditional violations, such 
as misuse of state resources for electoral advantage, vote buying and 
intimidation were not raised as issues by the candidates, observers or 
election officials, though they were prominent in several past 
Ukrainian elections.
Electoral Framework and Administration
    March 2014 amendments to the Presidential election law brought the 
framework into compliance with international standards and responded to 
many previous recommendations from domestic and international 
observers. The CEC as well as most district and precinct commissions 
performed professionally and, in some cases, with notable courage. 
Election commissioners and precinct premises were targeted with threats 
and violence in Donetsk and Luhansk. Those who fulfilled their 
responsibilities in the face of significant security risks in some 
parts of the country deserve particular commendation.
Campaigns and Candidates
    The 21 Presidential candidates on the ballot represented a broad 
range of political perspectives and parties, including the former 
ruling party. Campaigning was muted compared to previous Presidential 
elections, due to events in parts of the east, but the candidates and 
their teams were able to communicate with voters freely in most parts 
of the country. Campaign messages overwhelmingly focused on peace, 
stability, and Ukrainian unity. More traditional ``pocketbook'' issues 
like jobs, education and healthcare were not central to the campaigns. 
Violence and instability prevented normal campaigning in Donetsk and 
Luhansk.
Media Environment
    In most of the country, media freedoms were generally respected. 
Journalists were able to operate without interference and voters had 
access to multiple media perspectives, although coverage of the 
campaign was downplayed in favor of events in the south and east. There 
were some reports of unattributed paid advertising and socalled ``black 
PR,'' and some media outlets were seen to favor particular candidates.
    In Crimea, Donetsk and Luhansk, however, media freedoms came under 
attack. Journalists faced censorship, harassment, violence, and 
kidnapping. On the eve of the election, a journalist was murdered. In 
addition, a pro-Russia disinformation campaign aimed at discrediting 
the Ukrainian Government and its supporters permeated the pre-election 
environment.
Women's Participation
    Women represent 54 percent of the Ukrainian population, but they 
are underrepresented in politics as leaders. Only two Presidential 
candidates were women. The delegation did not see strong evidence that 
Presidential or local government campaigns systematically promoted 
women as candidates or campaigners, nor systematically targeted support 
from women voters.
Campaign Financing
    The corrosive role of money in politics is a major area of concern 
that has not yet been adequately addressed in legislation or practice. 
The amendments to the Presidential election law do little to control or 
bring transparency to campaign finances. Some Presidential candidates 
voluntarily disclosed on their Web sites sources and amounts of 
donations and expenditures. These are welcome steps, but before any 
future elections, consideration should be given to regulatory and 
legislative frameworks that would address these longstanding concerns.
                    iv. the delegation and its work
    The NDI delegation's coleaders, Albright and Palacio, symbolize the 
importance of a trans-Atlantic commitment to a democratic Ukraine, The 
delegation arrived in Kiev on May 21 and held meetings with national 
political leaders, Presidential candidates, election officials, senior 
government officials, representatives of nongovernmental organizations, 
the media and the diplomatic community. On May 24-25, observers 
deployed in teams to 11 regions across Ukraine, including Kiev, where 
they met with regional and local government representatives, election 
administrators, and political and civic leaders. On election day, the 
NDI teams observed voting and counting processes in polling stations 
across the country.
    In addition to Albright, Palacio, Harman, Kaufman, and Eorsi, 
members of the delegation included:

  <bullet> Brian Atwood, former administrator of the U.S. Agency for 
        International Development (USAID) and former president of NDI;
  <bullet> Hattie Babbitt, former U.S. Ambassador to the Organization 
        of American States, former deputy administrator of USAID and a 
        member of the NDI Board;
  <bullet> Richard Blum, chairman and president of Blum Capital 
        Partners and a member of the NDI Board;
  <bullet> Patrick Griffin, former assistant to the president and 
        director for legislative affairs under President Clinton and 
        member of the NDI Board;
  <bullet> Rick Inderfurth, former assistant secretary of state for 
        South Asian affairs and former U.S. representative for special 
        political affairs at the U.N.;
  <bullet> Kurt MacLeod, vice president for Asia and Eurasia at Pact;
  <bullet> Sarah Mendelson, former deputy assistant administrator at 
        USAID;
  <bullet> Sharon Nazarian, president of the Y&S Nazarian Family 
        Foundation;
  <bullet> James O'Brien, vice chair of the Albright Stonebridge Group;
  <bullet> Stephen Sestanovich, former U.S. Ambassador at Large for the 
        former Soviet Union and a professor of international diplomacy 
        at Columbia University;
  <bullet> William Taylor, former U.S. Ambassador to Ukraine and vice 
        president for the Middle East and Africa at the U.S. Institute 
        of Peace;
  <bullet> Kenneth Wollack, president of NDI;
  <bullet> Pat Merloe, director of electoral programs at NDI;
  <bullet> Ermek Adylbekov, program manager in NDI's Kyrgyzstan office;
  <bullet> Catherine Cecil, NDI's resident director in Ukraine;
  <bullet> Kathy Gest, director of public affairs at NDI;
  <bullet> Laura Jewett, NDI's regional director for Eurasia;
  <bullet> Daniel Mitov, NDI's resident representative in Brussels and 
        former executive director of the Democracy Foundation in 
        Bulgaria;
  <bullet> Teona Kupunia, senior program officer in NDI's Georgia 
        office;
  <bullet> Tinatin Museridze, senior administrative and financial 
        manager in NDI's Georgia office;
  <bullet> Gegham Sargsyanm NDI's resident country director in Armenia;
  <bullet> Andrei Strah, a consultant to NDI in Moldova; and
  <bullet> Aida Suyundueva, formerly of NDI's offices in Kyrgyzstan and 
        Azerbaijan.

    The mission builds on the ongoing observations of NDI's long-term 
analysts, who have worked with the Institute's Kiev-based staff since 
April, and the findings of NDI's April 7-11 pre-election assessment 
mission. Ted Kaufman and Matyas Eorsi, members of this delegation, also 
participated in the pre-election assessment. NDI also issued a May 9 
statement on separatist referendums and a second pre-election statement 
on May 19. NDI's 38 observers visited polling stations in districts 
across Ukraine. In addition to its international observation 
activities, NDI supported the election monitoring efforts of Opora and 
ENEMO.
    NDI is a nonprofit, nonpartisan organization working to support and 
strengthen democratic institutions worldwide through citizen 
participation, openness and accountability in government. NDI has 
monitored 340 elections and organized more than 150 international 
election observer missions in 63 countries, including four pre-election 
and election day assessments in Ukraine.

                                  <all>

</pre></body></html>
